<html>
<title> - COUNTERING THE NUCLEAR THREAT TO THE HOMELAND: PART I AND II</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                         COUNTERING THE NUCLEAR
                        THREAT TO THE HOMELAND:
                             PART I AND II

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON EMERGING
                      THREATS, CYBERSECURITY, AND
                         SCIENCE AND TECHNOLOGY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                   MARCH 14, 2007 AND MARCH 21, 2007

                               __________

                           Serial No. 110-14

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                   U.S. GOVERNMENT PRINTING OFFICE
35-273 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009


                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                        Todd Gee, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

   SUBCOMMITTEE ON EMERGING THREATS, CYBERSECURITY, AND SCIENCE AND 
                               TECHNOLOGY

               JAMES R. LANGEVIN, Rhode Island, Chairman

ZOE LOFGREN, California              MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    DANIEL E. LUNGREN, California
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
AL GREEN, Texas                      PETER T. KING, New York (Ex 
VACANCY                              Officio)
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                    Jacob Olcott, Director & Counsel

        Dr. Chris Beck, Senior Advisor for Science & Technology

                       Carla Zamudio-Dolan, Clerk

       Dr. Diane Berry, Minority Senior Professional Staff Member

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable James R. Langevin, a Representative in Congress 
  from the State of Rhode Island, and chairman, Subcommittee on 
  emerging Threats, Cybersecurity, and Science and Technology....     1
The Honorable Michael T. McCaul, a Representative in Congress 
  from the State of Texas, and Ranking Member, Subcommittee on 
  Emerging threats, Cybersecurity, and Science and Technology....     3
The Honorable Bob Etheridge, a Representative in Congress from 
  the State of North Carolina....................................    27
The Honorable Al Green, a Representative in Congress from the 
  State of Texas.................................................    22
The Honorable Daniel E. Lungren, a Representative in Congress 
  from the State of California...................................    25

                                 Part I
                       Wednesday, March 14, 2007
                               Witnesses

Mr. Gene Aloise, Director, Natural Resources and Environment, 
  U.S. Government Accountability Office:
  Oral Statement.................................................    11
  Prepared Statement.............................................    12
Mr. Vayl Oxford, Director, Domestic Nuclear Detection Office, 
  Department of Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7

                                Part II
                       Wednesday, March 21, 2007

Mr. Jayson Ahern, Assistant Commissioner, Office of Field 
  Operations, Customs and Border Protection, Department of 
  Homeland Security:
  Oral Statement.................................................    39
  Prepared Statement.............................................    41
Mr. Vayl Oxford, Director, Domestic Nuclear Detection Office, 
  Department of Homeland Security:
  Oral Statement.................................................    33
  Prepared Statement.............................................    35

                                Appendix
                             March 14, 2007

Additional Questions and Responses:
  Responses Submitted by Mr. Gene Aloise.........................    51


     EVALUATING THE PROCURMENT OF RADIATION DETECTION TECHNOLOGIES



                                 PART I

                              ----------                              


                       Wendesday, March 14, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
           Subcommittee on Emerging Threats, Cybersecurity,
                                and Science and Technology,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:27 p.m., in 
Room 1539, Longworth House Office Building, Hon. James Langevin 
[chairman of the subcommittee] presiding.
    Present: Representatives Langevin, Christensen, Etheridge, 
Green, McCaul, and Lungren.
    Mr. Langevin. [Presiding.] The subcommittee will come to 
order.
    The subcommittee is meeting today to receive testimony on 
``Countering the Nuclear Threat to the Homeland: Evaluating the 
Procurement of Radiation Detection Technologies.''
    I want to thank everyone for their patience. Unfortunately, 
the votes around here always throws a monkey-wrench into the 
schedule, but I appreciate our two witnesses being here today 
and for your, what I know will be, interesting testimony.
    Let me begin by, again, welcoming everyone today. 
``Countering the Nuclear Threat to the Homeland: Evaluating the 
Procurement of Radiation Detection Technologies'' will be the 
subject of our hearing today.
    But before I do that, I would just like to take a moment 
before we begin here to basically discuss this subcommittee's 
agenda for the 110th Congress.
    This subcommittee is faced with one of the most daunting 
challenges that confronts our nation today: securing our 
country from terrorists who are constantly thinking of new and 
innovative ways to harm us.
    I think we can all agree that we are certainly safer than 
we were prior to September 11, 2001, but, as the 9/11 
Commission itself said, we are not yet safe.
    This subcommittee's primary focus will be on closing the 
most glaring gaps in our security. To that end, we will be 
holding a number of hearings, very important hearings, in the 
coming weeks and months ahead.
    Today's hearing will be focusing on how we are dealing with 
the nuclear threat. And, with respect to biological security, 
the subcommittee plans to hold hearings next month on how we 
can strengthen Project BioShield.
    Recent events have made clear that this program continues 
to struggle, and this hearing will provide an opportunity to 
closely examine how to streamline operations in this critical 
program. I intend to make this one of my top priorities as 
chairman of this subcommittee.
    It is also crucial that we look for ways to increase the 
effectiveness of both the biological and nuclear detection 
technology that we have deployed along many of our border 
crossings and points of entry. This technology can be our last 
best chance to prevent a catastrophic attack. It is therefore 
crucial that we have the best technology at our disposal, and I 
also plan to hold hearings in the upcoming weeks on how we can 
best accomplish this goal.
    I also intend to hold a number of hearings to explore how 
we can strengthen our nation's cybersecurity efforts. We rely 
heavily upon our cyber systems, and we must ensure that we have 
the most robust tools at our disposal to keep those systems 
secure.
    Ranking Member McCaul and I have had the opportunity to 
discuss many of these issues, and I think we are both in 
agreement about the glaring threats that face our nation. I 
look forward to working with him and with the other members of 
the subcommittee to close the gaps and make our nation safer.
    Turning back to today's hearing, I want to welcome and 
thank our witnesses.
    Vayl Oxford is the director of the Domestic Nuclear 
Detection Office. And he and I have worked very closely on many 
of the issues that I previously mentioned.
    I would also like to thank our second witness, Gene Aloise, 
of the Government Accountability Office, for coming today and 
for his work on this important topic.
    First I want to begin by complimenting Mr. Oxford and the 
Domestic Nuclear Detection Office for working so aggressively 
to procure and deploy technologies to detect radiological and 
special nuclear materials at our nation's ports of entry. You 
have accomplished a lot in a very short time.
    As of February 2007, radiation portal monitors, RPMs, were 
scanning 100 percent of all U.S. mail, 89 percent of all cargo 
entering through U.S. seaports, 96 percent of cargo at the 
southern border and 91 percent at the northern border, with 
expected increases to 97 percent at seaports and 99 percent at 
the southern border by the end of 2007.
    To date, roughly 1,000 RPMs have been deployed. Future 
deployments designed to scan 100 percent of all conveyances 
will require an additional 1,500 to 2,000 units over the 
deployment schedule through fiscal year 2013.
    While the subcommittee is impressed with DNDO's efforts, 
though, we are concerned that such an aggressive schedule might 
have resulted in shortcuts in the decision-making process to 
acquire ASP technology.
    So this is the fundamental question that the subcommittee 
is examining today. The GAO's October 2006 report and the 
testimony submitted by Mr. Aloise certainly point to this 
possibility.
    I would like to say that I understand that both of our 
witnesses are doing their duty to protect this country. And I 
applaud this hard work and dedication of the both of you.
    It is my hope that through an open and thorough discussion, 
we will come to some agreement on how best to move forward.
    For example, the cost-benefit analysis that was looked at 
in the GAO report assumed a 95 percent positive identification 
rate for highly enriched uranium, HEU. The 2005 test of the 
equipment showed that currently the advanced spectroscopic 
portals, or ASPs, didn't perform nearly this well.
    We need to figure out why, and whether expecting this kind 
of performance is realistic, and, if not, how to move forward 
from here.
    So I look forward to your testimony and to a fruitful 
discussion of this important issue.
    The chair now recognizes the ranking member of the 
subcommittee, my partner in this effort, the gentleman from 
Texas, Mr. McCaul, for an opening statement.
    Mr. McCaul. I thank the chairman. And thank you for your 
leadership and focus on what I believe are the highest 
priorities for this nation, in terms of protecting us from 
another terrorist attack.
    I want to first start by thanking Mr. Oxford and Mr. Aloise 
for being here.
    One of the most devastating scenarios for a terrorist 
attack on the United States, in my judgment, would be the use 
of a nuclear or radiological weapon on a populated area.
    As we all know, the best way to prevent such an attack is 
to prevent such weapons from ever reaching our shores. And to 
counter this threat, the Domestic Nuclear Detection Office, or 
DNDO, has been tasked with the responsibility of detecting 
unauthorized radioactive material from being transported into 
and around the U.S.
    And, Mr. Oxford, we have visited; I enjoyed our visit. I 
commend you and your people on your tremendous progress in 
undertaking this very challenging task, which I believe to be 
one of the biggest threats to this country.
    Being from Texas, I understand the need for radiation 
detection systems, because the South Texas ports of entry are 
among the busiest in the nation. Laredo, Texas, is the busiest 
cargo land port in the U.S. And the port of Houston is the 
second-busiest seaport in total tonnage, moving more than about 
200 million tons of cargo in 2006.
    And traffic levels continue to increase as a result of the 
North American Free Trade Agreement. This means that there are 
more and more opportunities to smuggle radioactive material 
into the United States.
    And today, this subcommittee will hear testimony from DNDO 
regarding its procurement of current-generation systems, the 
plastic PVT monitors, as compared to the next-generation 
systems, called the advanced spectroscopic portal monitors, as 
ASPs. We will also discuss the process DNDO followed in 
procuring and deploying the ASPs.
    While the current PVT systems are able to detect 
radioactive material, the systems also have some serious 
limitations. PVT systems can't distinguish between innocent 
radioactive materials, such as kitty litter and medical 
isotopes, and nuclear threat materials. The result is a high 
rate of nuisance alarms that take time and manpower to 
investigate.
    And one problem I could see happening is that a CBP officer 
who is frustrated with the number of nuisance alarms decides to 
raise the threshold of the system so it would only alarm if 
there is a large amount of radiation. While this would reduce 
the number of false alarms, it could also allow some worrisome 
radioactive material to go undetected.
    Obviously that is a result we don't want to happen. A 
better solution, in part, would be to deploy better 
technology--technology that can detect and identify radioactive 
sources, technology that leads to little or no human error, and 
technology that will minimize delays to commerce while securing 
our nation from nuclear threats.
    I hope the ASP system is part of the answer and that it can 
overcome the limitations of the PVT systems and its 
capabilities are worth the additional cost.
    As part of their procurement process, DNDO conducted a 
cost-benefit analysis of the new ASP systems versus the old PVT 
systems. This analysis has been the subject of extensive review 
by the GAO, which concluded that the cost may outweigh the 
benefits of the new system.
    Given that the procurement cost of the new systems could 
exceed $1 billion, it isn't surprising that Mr. Aloise here has 
taken a close eye to the ASP program.
    Mr. Oxford is the steward of the domestic nuclear detection 
architecture. And, as that steward, I expect you to address 
GAO's concerns and that you will procure and deploy radiation 
detection equipment using a strategy that gives the best 
benefit for our dollars.
    And, Mr. Aloise, I also expect that when you consider the 
cost of more advanced technology to resolve alarms that you 
will take into account the unimaginable devastation that could 
result from even one mistake that lets harmful material into 
this country.
    Mr. Chairman, let me, again, thank you. And I yield back.
    Mr. Langevin. I thank the gentleman.
    Other members of the subcommittee are reminded that, under 
the committee rules, opening statements may be submitted for 
the record.
    And I would like to now turn to our panel of witnesses, 
again, welcoming both gentlemen.
    Our first witness, Mr. Vayl Oxford, is the director of the 
Domestic Nuclear Detection Office, a position that he has held 
since April of 2005. DNDO serves as the primary entity in the 
United States government to improve the nation's capability to 
detect and report unauthorized attempts to import, possess, 
store, develop or transport nuclear or radiological material 
for use against the nation, and to further enhance this 
capability over time.
    Our second witness, Mr. Gene Aloise, is the director of the 
natural resources and environment team at GAO. He is GAO's 
recognized expert in international nuclear non-proliferation 
and safety issues. His work for GAO has taken him to some of 
Russia's closed nuclear cities and the Chernobyl reactor in 
Ukraine, as well as numerous nuclear facilities around the 
world and in the United States. Mr. Aloise has had years of 
experience developing, leading and managing GAO domestic and 
international engagements.
    Without objection, the witnesses' full statements will be 
inserted into the record.
    I want to, again, welcome you both. Thank you for being 
here. And I ask now each witness to summarize your statement 
for 5 minutes, beginning with Mr. Oxford.
    Welcome.

STATEMENTS OF VAYL OXFORD, DIRECTOR, DOMESTIC NUCLEAR DETECTION 
            OFFICE, DEPARTMENT OF HOMELAND SECURITY

    Mr. Oxford. Thank you, Mr. Chairman, Ranking Member McCaul, 
and other members of the committee.
    First of all, I would like to set the record straight that 
it is ``Mr.'', not ``Dr.'' so that I don't either abuse others 
or be abused in a likewise manner.
    I want to thank the committee for the opportunity to 
discuss how we are testing and evaluating next-generation 
technologies. In particular, I will describe the certification 
process that is required by the 2007 appropriation act that ASP 
will undergo before we commit to acquisition and deployment of 
these systems.
    We recognize there were concerns raised in the October 2006 
GAO report, but we stand behind the basic conclusions of our 
cost-benefit analysis.
    Furthermore, we believe there has been a misunderstanding 
as to the intent of certain test series, the types of data 
collected, and the conclusions that were drawn. It is my hope 
that the information I provide today, including our path 
forward for the ASP program, is testament to the careful 
consideration we have given to our investments in ASP and, in 
turn, the GAO's concerns pertaining to next-generation 
technology.
    I would like to make it clear that DNDO remains committed 
to fully characterizing systems before deploying them into the 
field.
    Before I go into detail, I would like to again recap some 
of our success in deployments that we have had over time, that 
the chairman has already acknowledged.
    Two years ago, 40 percent of incoming containerized cargo 
was being scanned for radiological and nuclear threats. Today 
we are scanning 91 percent of all containerized cargo coming 
across our land and sea ports of entry.
    By 2007, we plan to have 98 percent of containerized sea 
cargo being scanned at the nation's top seaports. By 2008, we 
will scan 98 percent of containerized cargo transiting through 
land and sea ports of entry.
    Now I would like to discuss the ASP program and our efforts 
related to the cost-benefit analysis.
    Introducing these next-generation RPMs in the screening 
operation stems from the limitations in current PVT systems 
that detect the presence of radiation but cannot identify the 
specific isotopes. CBP relies on hand-held devices during 
secondary screening to provide isotope identification 
capability. Using ASP technology in secondary screening 
applications will greatly increase the overall effectiveness of 
CBP's screening.
    PVT portals installed for primary screening will 
effectively alarm on unshielded sources of radiating material, 
but this will also include nuisance alarms from naturally 
occurring radioactive material, or NORM.
    ASP will improve upon the identification capabilities of 
the current systems and minimize the diversion of legitimate 
commerce to secondary inspection. ASP will be especially 
important for high-volume ports of entry.
    The past broad-agency announcement that we released to 
industry resulted in the competitive awarding of 10 contracts 
for prototype development. The prototype units were tested in 
the winter of 2005, and the results were used as part of a 
competitive process to select vendors to proceed with 
engineering development.
    Production readiness testing--to include system performance 
testing against significant quantities of special nuclear 
material at the Nevada test site; stream-of-commerce testing at 
the New York Container Terminal; and systems qualification 
testing, which include shock, vibration and other environmental 
testing--is either under way now or will start soon.
    Therefore, it is important to remember that the prototype 
tests in 2005 were never intended to be production readiness 
tests. The tests were designed to support the selection process 
for vendors that would receive engineering development 
contracts. Moreover, we have not yet made a production 
decision.
    Regarding the cost-benefit analysis, let me briefly address 
the ASP issues. DNDO developed an initial cost-benefit analysis 
in the concept development phase of the program to determine 
whether further R&D was warranted.
    The CBA considered five different alternative 
configurations for radiation detection equipment at our ports 
of entry. Each alternative was evaluated based on the 
probability to detect and identify threats, the impacts on 
commerce, and the soundness of the investment.
    The preferred CBA alternative was a hybrid approach with 
ASP systems in primary screening and high-volume ports of 
entry, PVT systems in primary screening at medium-and low-
volume POEs, and ASP systems for all secondary screening.
    DNDO met on multiple occasions with the GAO staff to 
discuss the CBA methodology, assumptions, data sources, and 
results, and the fact that this was an initial CBA suitable for 
the concept development phase. Though we worked extensively 
with the GAO to further refine the CBA, confusion remained 
about our prototype test activities.
    At this point, Mr. Chairman, I will be glad to answer any 
questions. I have a lot of other comments, but for the sake of 
time I will just use my written record as a summation.
    [The statement of Mr. Oxford follows:]

                  Prepared Statement of Vayl S. Oxford

                       Wednesday, March 14, 2007

Introduction
    Good afternoon, Chairman Langevin, Ranking Member McCaul, and 
distinguished members of the subcommittee. I am Vayl Oxford, Director 
of the Domestic Nuclear Detection Office (DNDO), and I would like to 
thank the committee for the opportunity to discuss how we are testing 
and evaluating next-generation technologies. In particular, I would 
like to describe the certification process, required by the FY 2007 
Appropriations bill that the Advanced Spectroscopic Portals (ASPs) will 
undergo before we commit to purchasing and deploying the systems.
    DNDO recognizes that there were concerns raised in the Government 
Accountability Office (GAO) report entitled, ``Combating Nuclear 
Smuggling: Department of Homeland Security's Cost-Benefit Analysis to 
Support the Purchase of New Radiation Detection Portal Monitors Was Not 
Based on Available Performance Data and Did Not Fully Evaluate All the 
Monitors? Costs and Benefits,'' dated October 12, 2006. Nonetheless, we 
stand behind the basic conclusions of the cost benefit analysis (CBA). 
We realize there may have been a misunderstanding as to the intent of 
certain test series, the types of data collected, and the conclusions 
that were drawn. It is my hope that the information we provide today, 
including our path forward for the ASP program, is testament to the 
careful consideration we have given to our investments in ASP systems 
and, in turn, the GAO's concerns pertaining to next-generation 
technology.
    I would like to make it clear that DNDO remains committed to fully 
characterizing systems before deploying them into the field. This is a 
founding principle of our organization and we maintain a robust test 
and evaluation program for this purpose.
    Before I go into more detail about our test program and the 
upcoming certification of ASP systems, I would like to highlight some 
DNDO accomplishments which have occurred since I last appeared before 
this committee.

    DNDO Accomplishments and Activities
    As we continue to test and develop radiation portal monitors (RPMs) 
for use at our ports, we are also expanding security beyond our ports 
of entry. In FY2007, DNDO will develop and test several new variants of 
passive detection systems based upon ASP technology. These include a 
planned retrofit of existing CBP truck platforms, commonly used at 
seaports, and the development and performance testing of an SUV-based 
prototype system suitable for urban operations, border patrol, and 
other venues.
    The Systems Development and Acquisition Directorate is also 
executing the first phase of engineering development associated with 
the development of the Cargo Advanced Automated Radiography Systems 
(CAARS) system. A dominant theme within the nuclear detection community 
is that comprehensive scanning for smuggled nuclear materials requires 
both automated passive technologies and automated radiography systems. 
While ASP is DNDO's next generation passive detection system--providing 
an enhanced probability of success against unshielded or lightly 
shielded materials; CAARS will complement the ASPs by providing rapid 
automated detection of heavily shielded materials that no passive 
system can find. These two systems must function together to 
successfully detect nuclear threats at our Nation's ports. The three 
contractors selected by DNDO will proceed with system design and 
development efforts this year--including the development of many of the 
critical hardware and software components. DNDO, in coordination with 
Customs and Border Protection, will prepare the first CAARS deployment 
plan--describing in detail, where and how the CAARS units will be 
initially deployed, as well as a preliminary CAARS Cost Benefit 
Analysis and radiation health physics study.
    DNDO also continues to develop handheld, backpack, mobile, and re-
locatable assets with improved probability of identification, wireless 
communications capabilities, and durability. One specific goal is to 
deploy radiation detection capabilities to all U.S. Coast Guard 
inspection and boarding teams by the end of 2007. DNDO awarded 
contracts to five vendors in October 2006 for development of Human 
Portable Radiation Detection Systems (HPRDS), each of which will 
develop a HPRDS prototype unit. One promising HPRDS technology is the 
introduction of a lanthanum bromide detection crystal that may provide 
an extremely effective threat material identification capability along 
with a low false alarm rate. DNDO will also pursue research and 
development to standardize the flow of data to ensure rapid resolution 
of spectra acquired in the field, that need further validation as a 
threat or benign substance.
    With regard to Advanced Technology Demonstrations (ATDs), DNDO will 
further develop the existing and proposed ATDs in FY 2007. We held the 
first preliminary design review of Intelligent Personal Radiation 
Locator (IPRL) on February 28th. Further critical design reviews of the 
IPRL ATD will be conducted in mid-FY08, to be followed by performance 
testing and cost-benefit analysis in late-FY08 and early-FY09. An 
additional ATD for Standoff Detection will also be initiated in FY2007. 
Under this ATD, various imaging techniques will be evaluated for 
sensitivity, directional accuracy, and isotope identification accuracy 
with a goal of extending the range of detection to as much as 100 
meters, enabling a new class of airborne, land, and maritime 
applications.
    The Exploratory Research program is continuing to work in support 
of future ATDs to understand and exploit the limits of physics for 
detection and identification of nuclear and radiological materials as 
well as innovative detection mechanisms. A few examples of exploratory 
topics include a new technique that would extend the ability of passive 
detectors to verify the presence of Special Nuclear Material (SNM) 
through shielding and creation of new detector materials that would 
perform better and cost less than current materials.
    DNDO, in collaboration with the National Science Foundation (NSF), 
is beginning the Academic Research Initiative to fund colleges and 
universities to address the lack of nuclear scientists and engineers 
focusing on homeland security challenges through a dedicated grant 
program. A NSF survey shows a downward trend since the mid-1990s of 
nuclear scientists and engineers in the United States of approximately 
60 per year. In 1980, there were 65 nuclear engineering departments 
actively operating in the U.S. universities; now there are 29. 
Currently, it is estimated that one-third to three-quarters of the 
current nuclear workforce will reach retirement in the next 10 years. 
Projections forecast the requirement for approximately 100 new Ph.D.s 
in nuclear science per year to reverse these trends and support growing 
areas of need. In order to address this requirement, the DNDO and NSF 
recently issued a solicitation for the Academic Research Initiative, 
which will provide up to $58M over the next five years for grant 
opportunities for colleges and universities that will focus on 
detection systems, individual sensors or other research relevant to the 
detection of nuclear weapons, special nuclear material, radiation 
dispersal devices and related threats. DNDO's Operations Support 
Directorate provided Preventative Rad/Nuc Detection training to 402 
operations personnel in six state and local venues in FY 2006. We 
sponsored, designed, developed, and conducted the New Jersey multi-
jurisdictional rad/nuc prevention functional exercise, Operation 
Intercept, in September 2006, with approximately 60 players (operators, 
law enforcement, fire/hazmat, intelligence analysts, etc.). DNDO's 
FY2007 goal is to train 1,200 State and local operators in Basic, 
Intermediate and Advanced Preventive Rad/Nuc Detection courses. DNDO 
Training and Exercises activities will also support DHS planning for 
the TOPOFF 4 full-scale exercise to be held in 4th Quarter FY 2007. 
DNDO is coordinating closely with other Federal agencies and State and 
Locals in developing radiological/nuclear scenarios.
    The Southeast Transportation Corridor Pilot (SETCP) was initiated 
this past year to deploy radiation detection systems to interstate 
weigh stations. SETCP provided detection technologies (radiation portal 
monitors and mobile and handheld detection equipment) to five of the 
nine participating States in 2006, and this year we will equip the 
remaining states. Also, this year we plan to conduct a multi-state 
SETCP functional exercise using the weigh stations, the Southeast 
Regional Reachback Center, and the Joint Analysis Center (JAC).
    The Securing the Cities (STC) Initiative is moving forward as we 
work with New York City (NYC) and regional officials (led by the New 
York Police Department) to develop an agreed-upon initial multi-
jurisdictional, multi-pathway, defense-in-depth architecture for the 
defense of the NYC urban area. DNDO will conduct an analysis-of-
alternatives for the deployment architecture, develop equipment 
specifications to address the unique needs of urban-area detection and 
interdiction, and develop and test these detection systems.
    In FY 2006 a program to enhance and maintain pre-event/pre-
detonation rad/nuc materials forensic capabilities was funded within 
the DHS S&T Directorate. That program transferred to DNDO on October 1, 
2006. Concurrently, the DNDO established the National Technical Nuclear 
Forensics Center (NTNFC) to serve as a national-level interagency 
stewardship office for the Nation's nuclear forensic capabilities. 
Staff for this office includes experts from DHS, DoD, FBI, and DOE. 
Agencies are working together in a formal interdepartmental forum 
consisting of a senior level Steering Group and Working Groups for 
centralized NTNF planning, integration, and assessment. FY 2007 planned 
accomplishments include developing a strategic NTNF program plan and 
associated concept of operations (CONOPs) for rad/nuc forensics. These 
documents will describe and detail the roles and responsibilities of, 
and interactions between Federal agencies involved in the detection, 
collection, and forensic analysis of radiological/nuclear material(s) 
and device(s). DNDO will also establish a National Technical Nuclear 
Forensics (NTNF) Knowledge Base. This knowledge management program will 
include the creation of a knowledge base and analysis tools to support 
the timely and accurate interpretation of nuclear forensics data and 
information sharing among partners.

    Benefits of Next-Generation Detection Technology
    Now, I would like to discuss the ASP Program and our efforts in 
reference to the Cost Benefit Analysis and the steps required for 
certification. Our desire to introduce next-generation radiation portal 
monitors (RPMs) into screening operations stemmed from inherent 
limitations in the current-generation polyvinyl toluene (PVT) 
detectors. PVT detectors can detect the presence of radiation but 
cannot identify the specific isotopes present. Currently, CBP relies on 
hand-held radio-isotope identifier devices (RIIDs) during secondary 
screening to provide isotope identification capability. Introduction of 
isotope identifying ASP technology in secondary screening applications 
will greatly increase the overall effectiveness of CBP screening. PVT 
portals installed for primary screening will effectively alarm on all 
sources of radiating material. This unfortunately includes nuisance 
alarms such as granite tiles, ceramics, kitty litter and other 
naturally occurring radioactive material (NORM). Next-generation 
technology will improve upon the identification capabilities of current 
systems, and minimize the diversion of trucks and containers filled 
with legitimate commerce to a secondary inspection area where CBP 
Officers conduct a rather time-consuming, thorough investigation prior 
to release of the vehicle. This technology will be especially important 
for high volume or high NORM rate POEs, as it will lessen the burden on 
secondary inspection stations and the associated impact to the stream 
of commerce and CBP. Spectroscopic systems, like ASP, that use the 
signature of the radiation to make a simultaneous ``detection and 
identification'' decision provide one possible solution to this 
problem. However, further development and testing is required to 
resolve some remaining issues concerning the use of ASPs in primary, 
such as the potential masking of SNM by a large NORM signature.
    In accordance with DHS Investment practice, DNDO executed a classic 
systems development and acquisition program for ASP. Namely, DNDO 
implemented a program that consisted of concept evaluation, prototype 
development and test, an engineering development phase, a low-rate-
initial production phase--and eventually a full-rate production phase.
    During the concept development phase, DNDO issued a Broad Agency 
Announcement to industry--and competitively awarded ten contracts for 
the development of prototype units. DNDO then tested the prototype 
units in the winter of 2005, again during the concept development phase 
of the program, and used these test results as part of the competitive 
source selection process to select vendors to proceed with engineering 
development. Subsequent to the award of three ASP engineering 
development contracts to Thermo-Electron Corporation, Raytheon 
Corporation and Canberra Industries, DNDO directed the development of 
one ASP Engineering Development Model--or EDM--designed and built with 
the rigor necessary to be found suitable for production. Production 
Readiness Testing, including System Performance Testing against 
significant quantities of SNM at the Nevada Test Site, Stream-Of-
Commerce Testing at the New York Container Terminal, and System 
Qualification Testing, which includes shock, vibration, and other 
environmental testing, is being conducted as we speak.
    As I address many detailed concerns--I think it is very important 
to preface my statements by reiterating that the Winter 05 prototype 
test was never intended to be a production readiness test--nor a formal 
developmental test. The tests were designed to facilitate the 
competitive process by selecting those vendors that would receive 
further engineering development contracts, based in part, on the 
performance of their prototype systems. Much of the perceived confusion 
with regard to ASP performance stems from a miscommunication with 
regard to what the test results mean and what they do not mean and the 
complete evaluation process for ASP.

Cost-Benefit Analysis
    Let me briefly address the ASP cost-benefit analysis. As I 
mentioned earlier, DNDO developed a first-cut cost benefit analysis 
(CBA) in the concept development phase of the ASP Program. Many DHS 
programs, such as ASP, produce a CBA in the concept development phase 
and subsequently update it as part of what the Department has referred 
to as Key Decision Point Three--the full-scale full-scale production 
milestone decision. An initial CBA (based simply upon studies, 
analyses, and modeling results) is required for all DHS investments 
during the concept development phase to determine whether further R&D 
investment is prudent.
    The CBA fundamentally considered five different alternative 
configurations of radiation detection equipment at a CBP Ports of 
Entry. Specifically, the alternatives included:

        #1--referred to as the `status quo' alternative consisted of 
        the use of a current-generation PVT-based RPM in what is 
        referred to as `Primary Inspection' coupled with a second such 
        system in secondary inspection--along with a current generation 
        handheld device used for identification.
        #2--referred to as the ``adjusted threshold'' alternative; is 
        identical to alternative #1 except that the PVT systems are set 
        to their maximum sensitivity and, hence, experience the highest 
        false alarm rate
        #3--referred to as the `enhanced secondary' alternative; 
        consists of a current-generation PVT-based RPM system in 
        primary with an ASP Portal in `secondary'.
        #4--referred to as the `hybrid' alternative where ASP systems 
        are deployed in primary and secondary locations for high volume 
        and high NORM rate POEs and PVT systems are used in Primary 
        with an ASP in secondary for medium and low volume ports
        And #5--referred to as the `All ASP' alternative; consists of 
        placing ASP in both primary and secondary inspection areas.
    Each alternative was evaluated on the basis of probability to 
detect and identify threats, impact on commerce, and soundness of the 
investment.
    The preferred alternative recommended by the CBA was a hybrid 
approach consisting of ASP systems for primary screening at high-volume 
ports of entry (POEs), PVT systems for primary screening at medium and 
low-volume POEs, and ASP systems for all secondary screening. The DNDO/
CBP Joint Deployment Strategy describes the way in which the mix of PVT 
and ASP portals would be deployed to maximize the benefit of ASP, while 
minimizing the cost. We plan on initiating a phased installation by 
first installing the monitors for secondary inspection. This will allow 
CBP to gain operating experience and allow time to further evaluate the 
ASPs as a primary inspection tool.
    DNDO met on multiple occasions with the GAO staff to discuss the 
CBA methodology, assumptions, data sources, and results and the fact 
that this was an initial CBA, suitable for the Concept Development 
phase of a program. We worked extensively with the GAO to further 
refine the CBA and provided written responses to the GAO documenting 
the technical rationale for DNDO's approach.
    Nonetheless, confusion remained about our prototype test 
activities. Specifically, the GAO criticized DNDO for assuming a 
probability of detection of 95 percent, even though the Winter-05 test 
results did not show this same capability. Once again, as I mentioned 
above, the Winter-05 test results cited by the GAO were not intended to 
determine the absolute capabilities of deployed systems; rather, they 
were intended to support initial source selection decisions. We remain 
committed to high fidelity testing and are currently conducting a 
complete set of System Performance tests prior to ASP Full Rate 
Production.
    The GAO reported that DNDO tested the performance of PVT and ASP 
systems side-by-side, but did not use these results in the CBA. Again, 
the test series referenced was not intended to provide an objective 
side-by-side comparison of PVT and ASP systems; it was intended solely 
to provide an objective side-by-side comparison of the competing 
vendors' prototypes. While the Winter-05 Tests were aimed at ASP source 
selection, it is the tests we are conducting now--the Winter-06 Tests--
that are aimed specifically at assessing the cost-benefit associated 
with ASP and will therefore provide an ASP and PVT and Handheld side-
by-side analysis that one would expect to see at this point in the 
program.
    The GAO also stated that the CBA only evaluated systems' ability to 
detect highly enriched uranium (HEU) and did not consider other 
threats. DNDO agrees that threats other than HEU are equally 
important--and our Winter 06 test is evaluating the Production ASP 
units against a full set of Special Nuclear Materials--including those 
that might be used for an improvised nuclear devise and those that 
might be used for a radiological dispersal device.
    We agree with the GAO that further test and evaluation of ASP 
systems must occur. Indeed, DNDO always planned on validating its 
assumptions through further testing prior to making a production 
decision.
    Upon the successful completion of its ASP evaluation, DNDO intends 
to request Key Decision Point Three (KDP-3) approval--that is 
permission to enter full rate production of ASP--in the summer of this 
year. Our request will be based upon completed and documented test 
results from test campaigns to be conducted at NTS, NYCT, and at 
contractor facilities; as well as interim results from deployment 
integration testing to be conducted at the Pacific Northwest National 
Laboratory (PNNL) Integration Laboratory (frequently referred to as the 
331G facility), and one or more field validation efforts in which an 
ASP unit is installed in ``secondary screening'' at an operational POE 
in tandem with existing approved interdiction systems.
    The test results from this campaign will facilitate the Secretary's 
certification decision that is called for in the FY 2007 Homeland 
Security Appropriations Act (P.L. 109-295). DNDO will commit to full-
rate production only after we are confident that ASP systems 
significantly upgrade our detection capabilities and operational 
effectiveness and that they meet the Department's goal to protect our 
Nation from dangerous goods. DNDO will use a combination of cost-
benefit analyses as well as demonstrated performance metrics to assist 
in the Secretary?s certification decision.

Contract Awards for ASP
    As I have stated earlier, one of our major accomplishments this 
past year was issuing Raytheon Company--Integrated Defense Systems, 
Thermo Electron Company, and Canberra Industries, Inc. contract awards 
for engineering development and low-rate initial production of ASP 
systems. Initial ASP contract awards totaled approximately $45 million. 
The priority for the base year is development and testing of the fixed 
radiation detection portal that will become the standard installation 
for screening cargo containers and truck traffic. The total potential 
award of $1.2 billion, including options, will be made over many years, 
based upon performance and availability of funding.

Future Deployment
    DNDO intends to deploy ASP systems to the Nation's POEs based on 
the Joint Deployment Strategy I referenced earlier. In addition, ASP 
systems will be deployed overseas through the Department of Energy's 
(DOE) Megaports Initiative to work in cooperation with currently 
deployed PVT--based radiation portal monitors in those venues. DOE has 
purchased ASP units for use with MegaPorts from DNDO?s existing 
contract.

Conclusion
    DNDO is improving capabilities in detection and interdiction of 
illicit materials, intelligence fusion, data mining, forensics, and 
effective response to radiological or nuclear threats. It is the 
intention of DNDO to fully test and evaluate emerging technologies, in 
order to make procurement and acquisition decisions that will best 
address the detection requirements prescribed by the Global Nuclear 
Detection Architecture. We work with our interagency and intra-agency 
partners to ensure that deployment and operability of our systems 
enhance security and efficiency without unnecessarily impeding 
commerce.
    We plan to work with the GAO to foster better understanding of our 
development, acquisition, and testing approaches and will share results 
of our testing with Congress. This concludes my prepared statement. 
With the committee's permission, I request my formal statement be 
submitted for the record. Chairman Langevin, Ranking Member McCaul, and 
Members of the Subcommittee, I thank you for your attention and will be 
happy to answer any questions you may have.

    Mr. Langevin. Thank you, Mr. Oxford.
    And now I would like to turn to Mr. Aloise to summarize his 
statement for 5 minutes.
    Mr. Aloise?

   STATEMENT OF GENE ALOISE, DIRECTOR, NATURAL RESOURCES AND 
       ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Aloise. Thank you, Mr. Chairman.
    Mr. Chairman and members of the subcommittee, I am pleased 
to be here today to discuss DNDO's cost-benefit analysis used 
to support the purchase and deployment of the next generation 
of radiation portal monitors.
    This is an important decision not only for cost reasons 
but, more importantly, for national security reasons.
    DNDO would like to improve the capabilities of its portal 
monitors so that they can perform the dual roles of detecting 
radiation and specifically identifying radiological materials.
    In our March 2006 report, we recommended that DHS conduct a 
cost-benefit analysis to determine whether the new portal 
monitors will provide additional security and are worth the 
cost.
    My remarks are based on our October of 2006 report that 
evaluated DNDO's cost-benefit analysis.
    DNDO's cost-benefit analysis does not provide a sound 
analytical basis for its decision to purchase and deploy the 
new portal monitors.
    Some of the problems with the analysis include: DNDO 
assumed the new portals would correctly identify HEU 95 percent 
of the time, instead of using actual test results that showed 
that the new portals did not come close to meeting that 
assumption.
    Further, DNDO used unreliable performance data for the 
current portals, which, in comparison, made the performance of 
the new portals look better than it actually was.
    And the analysis focused on HEU and did not consider how 
well the new portals could detect and identify other dangerous 
radiological and nuclear material.
    Regarding DNDO's cost estimates, DNDO used highly inflated 
cost estimates for the current portal monitors--$131,000 per 
portal instead of the contract price at the time of $55,000 per 
portal--which made the current portals look much more expensive 
that they actually were.
    Furthermore, DNDO did not determine the baseline cost of 
secondary inspections. This makes it impossible to determine 
whether the use of the new portals will actually be cheaper to 
use than the current portals.
    The analysis also did not include development cost, and it 
underestimated lifecycle equipment cost. The lifecycle cost 
alone could add another $181 million to the cost of the new 
equipment, which has already exceeded the original estimate by 
$200 million.
    Finally, DNDO focused its analysis on measuring how much 
the new portals might improve the flow of commerce into the 
United States, but it did not address whether this equipment 
would improve our security against nuclear smuggling.
    The bottom line is, Mr. Chairman, DNDO's cost-benefit 
analysis does not justify its decision to spend $1.2 billion to 
deploy the new portal monitors. The data used in the analysis 
was incomplete and unreliable, and, as a result, we do not have 
any confidence in it.
    Mr. Chairman, that concludes my remarks. I would be happy 
to respond to any questions you or members of the subcommittee 
may have.
    [The statement of Mr. Aloise follows:]

                  Prepared Statement of Gene Aloise *

                       Wednesday, March 14, 2007

    Mr. Chairman and Members of the Subcommittee:
    I am pleased to appear here today to discuss our assessment of the 
Department of Homeland Security's (DHS) May 2006 cost-benefit analysis 
used to support the purchase and deployment of next generation 
radiation portal monitors.\1\ This is an important decision because, if 
procured, these new portal monitors will be considerably more expensive 
than the portal monitors in use today. Combating nuclear smuggling is 
one of our nation's key national security objectives and the deployment 
of radiation detection equipment including portal monitors at U.S. 
ports of entry, including border crossings and domestic seaports, is an 
integral part of this system. DHS, through its Domestic Nuclear 
Detection Office (DNDO), is responsible for acquiring and supporting 
the deployment of radiation detection equipment, including portal 
monitors, within the United States. The Pacific Northwest National 
Laboratory (PNNL), one of the Department of Energy's (DOE) national 
laboratories, is under contract to manage the deployment of radiation 
detection equipment for DHS.\2\ U.S. Customs and Border Protection 
(CBP) is responsible for screening cargo as it enters the nation at our 
borders, which includes operating radiation detection equipment to 
interdict dangerous nuclear and radiological materials.
---------------------------------------------------------------------------
    * GAO Combating Nuclear Smuggling: DHS' Decision to procure and 
Deploy the Next Generation of Radiation Detection Equipment Is Not 
Supported by Its Cost-Benefit Analysis, GAO-07-581T (Washington, D.C.: 
March 14, 2007).
    \1\ GAO, Combating Nuclear Smuggling: DHS's Cost-Benefit Analysis 
to Support the Purchase of New Radiation Detection Portal Monitors Was 
Not Based on Available Performance Data and Did Not Fully Evaluate All 
the Monitors' Costs and Benefits, GAO-07-133R (Washington, D.C.: Oct. 
17, 2006). GAO, Combating Nuclear Smuggling: DHS Has Made Progress 
Deploying Radiation Detection Equipment at U.S. Ports of Entry, but 
Concerns Remain, GAO-06-389 (Washington, D.C.: Mar. 22, 2006).
    \2\ DOE manages the largest laboratory system of its kind in the 
world. The mission of DOE's 22 laboratories has evolved. Originally 
created to design and build atomic weapons, these laboratories have 
since expanded to conduct research in many disciplines--from high-
energy physics to advanced computing.
---------------------------------------------------------------------------
    The radiation portal monitors in use today can detect the presence 
of radiation, but they cannot distinguish between types of radiological 
material. For example, they cannot tell the difference between harmless 
products that emit radiation, such as ceramic tile, and dangerous 
materials, such as highly enriched uranium (HEU), that could be used to 
construct a nuclear weapon. Generally, CBP's standard procedures 
require incoming cargo to pass through one of these radiation portal 
monitors to screen for the presence of radiation. This ``primary 
inspection'' serves to alert CBP officers when a radioactive threat 
might be present. If there is a potential threat, CBP procedures 
require a ``secondary inspection.'' To confirm the presence of 
radiation, this secondary inspection usually includes a second 
screening by a radiation portal monitor as well as a screening by CBP 
officers using radioactive isotope identification devices. These 
handheld devices are used to differentiate between types of radioactive 
material to determine if the radiation being detected is dangerous. 
Both the radiation portal monitors and handheld devices are limited in 
their abilities to detect and identify nuclear material.
    DHS would like to improve the capabilities of its portal monitors 
so that they can perform the dual roles of detecting radiation and 
identifying radiological materials. In this regard, DHS has sponsored 
research, development, and testing activities designed to create the 
next generation of portal monitors capable of performing both 
functions. These new, advanced portals are known as advanced 
spectroscopic portals (ASPs). In July 2006, DHS awarded contracts to 
three vendors for developing the advanced spectroscopic portals' 
capabilities. These awards were based mainly on performance tests 
conducted at DHS's Nevada Test Site in 2005, where ten competing 
advanced spectroscopic vendors' monitors were evaluated. At the same 
time, three current technology portal monitors were also tested.
    To ensure that DHS's substantial investment in radiation detection 
technology yields the greatest possible level of detection capability 
at the lowest possible cost, in a March 2006 GAO report,\3\ we 
recommended that once the costs and capabilities of ASPs were well 
understood, and before any of the new equipment was purchased for 
deployment, the Secretary of DHS work with the Director of DNDO to 
analyze the costs and benefits of deploying ASPs. Further, we 
recommended that this analysis focus on determining whether any 
additional detection capability provided by the ASPs was worth the 
considerable additional costs. In response to our recommendation, DNDO 
issued its cost-benefit analysis in May 2006, and an updated, revised 
version in June 2006. According to senior agency officials, DNDO 
believes that the basic conclusions of its cost-benefit analysis show 
that the new advanced spectroscopic portal monitors are a sound 
investment for the U.S. government.
---------------------------------------------------------------------------
    \3\ GAO, Combating Nuclear Smuggling: DHS Has Made Progress 
Deploying Radiation Detection Equipment at U.S. Ports of Entry, but 
Concerns Remain, GAO-06-389 (Washington, D.C.: Mar. 22, 2006).
---------------------------------------------------------------------------
    Mr. Chairman, my remarks today focus on the cost-benefit analysis 
DNDO used in support of its decision to purchase new ASP portal 
monitors. Specifically, I will discuss whether DNDO's June 2006 cost-
benefit analysis provides an adequate basis for the substantial 
investment that acquiring and deploying ASPs will necessitate.
    My testimony is based upon our October 2006 report that evaluated 
DNDO's cost-benefit analysis.\4\ The work for our report was done in 
accordance with generally accepted government auditing standards.
---------------------------------------------------------------------------
    \4\ GAO, Combating Nuclear Smuggling: DHS's Cost-Benefit Analysis 
to Support the Purchase of New Radiation Detection Portal Monitors Was 
Not Based on Available Performance Data and Did Not Fully Evaluate All 
the Monitors' Costs and Benefits, GAO-07-133R (Washington, D.C.: Oct. 
17, 2006).
---------------------------------------------------------------------------
    In summary, DNDO's 2006 cost-benefit analysis does not provide a 
sound analytical basis for its decision to purchase and deploy the new 
advanced spectroscopic portal monitor technology.
Regarding the performance of the portal monitors:
        <bullet> Instead of using the results of its performance tests 
        conducted in 2005, DNDO's analysis simply assumed that ASPs 
        could detect highly enriched uranium 95 percent of the time, a 
        performance level far exceeding the capabilities of the new 
        technology's current demonstrated capabilities. The 2005 test 
        results showed that the best of the three winning vendor 
        monitors could only identify masked HEU \5\ about 50 percent of 
        the time.
---------------------------------------------------------------------------
    \5\ ``Masking'' is an attempt to hide dangerous nuclear or 
radiological material by placing it with benign radiological sources.
---------------------------------------------------------------------------
        <bullet> To determine the current generation of portal 
        monitors' performance in detecting HEU, DNDO used data from 
        limited tests carried out in 2004 that test officials concluded 
        was unreliable for such purposes. In their written report, test 
        officials explicitly stated that the data were not indicative 
        of how well current technology portal monitors might perform in 
        the field particularly for detecting HEU.
        <bullet> DNDO's analysis of the new technology portal monitors' 
        performance was deficient because it focused on detecting and 
        identifying HEU, but did not fully consider other dangerous 
        radiological or nuclear materials. DNDO should have assessed 
        the ASPs' abilities to detect several realistic threat 
        materials.
Regarding cost estimates:
        <bullet> In comparing the costs of the new and current 
        technologies, the procurement costs of the current generation 
        portal monitors were highly inflated because DNDO assumed a 
        unit cost of about $131,000, while the contract price at the 
        time of the analysis was about $55,000. According to officials 
        who manage the contract, it was to expire and while they 
        expected portal monitor prices to increase, they did not 
        believe the cost would be as much as the price used in DNDO's 
        analysis.
        <bullet> DNDO stated that the primary benefit of deploying the 
        new portal monitors is reducing unnecessary secondary 
        inspections. However, DNDO's analysis did not fully estimate 
        today's baseline costs for secondary inspections, which makes 
        it impossible to determine whether the use of the new portal 
        monitors as currently planned will result in significant cost 
        savings for these inspections.
        <bullet> The new portal monitor contract price has exceeded 
        DNDO's total cost estimate by about $200 million. The cost-
        benefit analysis shows the total cost for deploying both 
        current and new portal monitors to be about $1 billion. 
        However, in July 2006, DHS announced that it had awarded 
        contracts to develop and purchase up to $1.2 billion worth of 
        the new portal monitors over 5 years.
        <bullet> DNDO's cost-benefit analysis omitted many factors that 
        could affect the cost of new portal monitors, such as 
        understating the life-cycle costs for operating and maintaining 
        the equipment over time.
Background
    In general, DHS is responsible for providing radiation detection 
capabilities at U.S. ports of entry. Until April 2005, CBP managed this 
program. However, on April 15, 2005, the President directed the 
establishment of DNDO within DHS. DNDO's duties include acquiring and 
supporting the deployment of radiation detection equipment, including 
portal monitors. CBP continues its traditional screening function at 
ports of entry to interdict dangerous nuclear and radiological 
materials through the use of radiation detection equipment. The SAFE 
Port Act of 2006 formally authorizes DNDO's creation and operation.\6\ 
PNNL manages the deployment of radiation detection equipment for DHS.
---------------------------------------------------------------------------
    \6\ Pub. L. No. 109-347, tit. V, 120 Stat. 1884, 1932 (2006).
---------------------------------------------------------------------------
    DHS's program to deploy radiation detection equipment at U.S. ports 
of entry has two goals. The first is to use this equipment to screen 
all cargo, vehicles, and individuals coming into the United States. The 
second is to screen this traffic without delaying its movement into the 
nation. DHS's current plans call for completing the deployment of 
radiation portal monitors at U.S. ports of entry by September 2013. The 
current technology portal monitors, known as plastic scintillators or 
PVTs, cost about $55,000 per unit, while the advanced spectroscopic 
portal monitors, known as ASPs, will cost around $377,000 per unit.\7\
---------------------------------------------------------------------------
    \7\ Prices include only equipment purchase. Installation costs are 
extra.
---------------------------------------------------------------------------
    In July 2006, DHS announced that it had awarded contracts to three 
ASP vendors to further develop and purchase $1.2 billion worth of ASPs 
over 5 years. Congress, however, provided that none of DNDO's 
appropriated funds for systems acquisition could be obligated for full 
procurement of ASPs until the Secretary of DHS certifies through a 
report to the Committees on Appropriations for the Senate and House of 
Representatives that ASPs would result in a significant increase in 
operational effectiveness.\8\
---------------------------------------------------------------------------
    \8\ Department of Homeland Security Appropriations Act for Fiscal 
Year 2007, Pub. L. No. 109-295, tit. IV, 120 Stat. 1355, 1376 (2006).
---------------------------------------------------------------------------
DNDO Ignored Its Own Performance Test Results and Instead Relied on the 
Potential Performance of New Portal Monitors and Unreliable Estimates 
of Current Equipment Performance
    DHS is developing new portal monitors, known as ASPs that, in 
addition to detecting nuclear or radiological material, can also 
identify the type of material. In 2005, DNDO conducted side-by-side 
testing at the Nevada Test Site (NTS) \9\ on 10 ASP systems and 3 PVT 
systems developed by private sector companies, including the PVT 
systems currently deployed. DHS requested that the National Institutes 
of Standards and Technology (NIST) provide assistance by conducting an 
independent analysis of data acquired during the last phase of 
developmental testing of ASPs to help DHS determine the performance of 
ASP portal monitors being proposed by private sector companies. NIST 
compared the 10 ASP systems, and in June 2006 submitted a report to DHS 
on the results of that testing.\10\
---------------------------------------------------------------------------
    \9\ DHS and DOE are collaborating in building a new Radiological 
and Nuclear Countermeasures Test and Evaluation Complex at the Nevada 
Test Site to support the development, testing, acquisition, and 
deployment of radiation detection equipment. The facility is expected 
to become fully operational in early 2007. Currently, an interim 
facility at NTS is being used to test radiation detection equipment.
    \10\ NIST did not evaluate the PVTs or compare their performance to 
the performance of the ASPs.
---------------------------------------------------------------------------
    Performance tests of ASPs showed that they did not meet DNDO's main 
performance assumption in the cost-benefit analysis of correctly 
identifying HEU 95 percent of the time it passes through portal 
monitors. The 95 percent performance assumption included ASPs' ability 
to both detect bare, or unmasked, HEU in a container and HEU masked in 
a container with a more benign radiological material.\11\ Based on 
NIST's assessment of the performance data, the ASP prototypes 
(manufactured by the three companies that won DNDO's recent ASP 
procurement contract) tested at NTS identified bare HEU only 70 to 88 
percent of time. Performance tests also showed that ASPs' ability to 
identify masked HEU fell far short of meeting the 95 percent goal 
established for the cost-benefit analysis. According to DNDO, 
identifying masked HEU is the most difficult case to address. DOE 
officials told us that benign radiological materials could be used to 
hide the presence of HEU. NIST reported that the best ASP prototype 
DNDO tested in Nevada during 2005, and which won a procurement 
contract, was able to correctly identify masked HEU and depleted 
uranium (DU) only 53 percent of the time. Similarly, the ASP prototypes 
submitted by the other two companies that won DNDO ASP procurement 
contracts were able to identify masked HEU and DU only 45 percent and 
17 percent of the time.
---------------------------------------------------------------------------
    \11\ The ability to detect masked HEU is based on DOE guidance on 
performing the evaluation.
---------------------------------------------------------------------------
    Despite these results, DNDO did not use the information from these 
tests in its cost-benefit analysis. Instead, DNDO officials told us 
that since the new portal monitors cannot meet the 95 percent detection 
goal, they relied on the assumption that they will reach that level of 
performance sometime in the future. DNDO officials asserted that the 
ASPs' current performance levels would improve, but they provided no 
additional information as to how the 95 percent goal will be achieved 
or an estimate of when the technology would attain this level of 
performance.
    Moreover, DNDO's cost-benefit analysis only considered the benefits 
of ASPs' ability to detect and identify HEU and did not consider the 
ASPs' ability to detect and identify other nuclear and radiological 
materials. The ability of an ASP to identify specific nuclear or 
radiological materials depends on whether the ASP contains software 
that is specific to those materials. In our view, a complete cost-
benefit analysis would include an assessment of ASPs' ability to detect 
and identify a variety of nuclear and radiological material, not just 
HEU. By excluding radiological and nuclear materials other than HEU, 
DNDO's analysis did not consider the number of secondary inspections 
that would be related to these materials and hence it likely 
underestimated the costs of ASP use. Further, DNDO told us the 
assumptions for the ability of ASP systems to detect and identify HEU 
95 percent of the time came from the ASP performance specifications. 
However, we examined the performance specifications and found no 
specific requirement for detecting or identifying HEU with a 95 percent 
probability.\12\ While there is a requirement in the performance 
specification for the identification for HEU and other special nuclear 
material, we found no associated probability of success in performing 
this function.
---------------------------------------------------------------------------
    \12\ The performance specifications contain a requirement for 
detecting, not identifying, californium-252 with a 95 percent 
probability. Californium-252 has similar radiological properties to 
HEU. In addition, the performance specifications contain a requirement 
for detecting, but not identifying, other radiological materials such 
as cobalt-57, cobalt-60, barium-133, cesium-137, and americium-241.
---------------------------------------------------------------------------
    DNDO's cost-benefit analysis also may not accurately reflect the 
capabilities of PVTs to detect nuclear or radiological material. DNDO 
officials acknowledged that DNDO tested the performance of PVTs along 
with the ASPs in 2005, but did not use the results of these tests in 
its cost-benefit analysis. According to these officials and NIST staff 
who assisted in the testing, the PVT performance data were unusable 
because the PVTs' background settings were not set properly. 
Consequently, DNDO officials told us the analysis was based on the 
performance of PVT monitors that PNNL tested during 2004 in New York. 
However, the results from these field tests are not definitive because, 
as PNNL noted in its final report, the tests did not use HEU and, 
therefore, the results from the tests did not indicate how well PVT 
portal monitors would be able to detect HEU in the field.\13\ Moreover, 
the PVT portal monitors that PNNL used had only one radiation detection 
panel as opposed to the four-panel PVT monitors that DHS currently 
deploys at U.S. ports of entry. An expert at a national laboratory told 
us that larger surface areas are more likely to detect radiological or 
nuclear material. DNDO also stated that due to the nature of the 
testing at the Nevada Test Site, the tests did not provide the data 
needed for the cost-benefit analysis. According to DNDO officials, this 
data would come from analysis of the performance of fielded systems at 
U.S. ports-of-entry where the probability to detect threats could be 
compared to false alarm rates.
---------------------------------------------------------------------------
    \13\ Pacific Northwest National Laboratory, A Sensitivity 
Comparison of NaI and PVT Portal Monitors at a Land-Border Port-of-
Entry, p. iii, November 2004. For Official Use Only.
---------------------------------------------------------------------------
    DNDO's director stated twice in testimony before the House Homeland 
Security Committee, Subcommittee on Prevention of Nuclear and 
Biological Attack--once on June 21, 2005, and again on May 26, 2006--
that the ASP and PVT portals would be evaluated against one another in 
``extensive high-fidelity'' tests. In our view, the results of such 
testing are critical to any decision by DNDO to employ new technology, 
such as ASPs, that might help protect the nation from nuclear 
smuggling. According to DNDO officials, new tests now underway at the 
DHS Nevada Test Site are comparing the performance of ASPs and PVTs 
side-by-side.
DNDO's Cost-Benefit Analysis was Incomplete and Used Inflated Cost 
Estimates for PVT Equipment
    DNDO officials told us they did not follow the DHS guidelines for 
performing cost-benefit analyses in conducting their own cost-benefit 
analysis.\14\ These guidelines stipulate, among other things, that such 
studies should address all of the major costs and benefits that could 
have a material effect on DHS programs. However, DNDO's analysis 
omitted many factors that could affect the cost of new radiation portal 
monitors. For example, DNDO officials told us that there are over 12 
different types of ASP monitors, yet they only estimated the cost of 
cargo portal monitors that would be used at land border crossings. In 
reality, DNDO and CBP plan to deploy different types of ASPs that would 
have varying costs, such as portal monitors at seaports which would 
have higher costs. Additionally, DNDO did not capture all the costs 
related to developing the different types of ASP monitors. In our view, 
developing realistic cost estimates should not be sacrificed in favor 
of simplicity.
---------------------------------------------------------------------------
    \14\ DHS, Capital Planning and Investment Control, Cost-Benefit 
Analysis (CBA) Guidebook 2006, Version 2.0, February 2006. Traditional 
rules of performing cost-benefit analyses include assessing the full 
life-cycle costs for operation and maintenance, and determining the 
level of confidence in cost data.
---------------------------------------------------------------------------
    DNDO also underestimated the life-cycle costs for operations and 
maintenance for both PVT and ASP equipment over time. DNDO's analysis 
assumed a 5-year life-cycle for both PVT and ASP equipment. However, 
DNDO officials told us that a 10-year life-cycle was a more reasonable 
expectation for PVT and ASP equipment. The analysis assumes that the 
annual maintenance costs for PVT and ASP monitors will each equal 10 
percent of their respective procurement costs. This means that 
maintenance costs for PVTs would be about $5,500 per year per unit 
based on a $55,000 purchase price and ASP maintenance costs would be 
about $38,000 per year per unit based on a $377,000 purchase price. 
Given the much higher maintenance costs for ASPs and the doubling of 
the life-cycle to 10 years, the long-term implications for these cost 
differences would be magnified. Consequently, DNDO's analysis has not 
accounted for about $181 million in potential maintenance costs for 
ASPs alone.
    Furthermore, DNDO did not assess the likelihood that radiation 
detection equipment would either misidentify or fail to detect nuclear 
and radiological materials. Rather, DNDO's cost-benefit analysis 
focuses on the ability of ASPs to reduce false alarms--alarms that 
indicate nuclear or radiological material is in a container when, in 
fact, the material is actually non-threatening, such as ceramic tile. 
Reducing false alarms would reduce the number of secondary inspections 
of non-threatening nuclear and radiological materials and therefore the 
costs of those inspections. However, as required by DHS's guide to 
performing cost-benefit analyses, DNDO's analysis did not include all 
costs. In particular, the analysis did not include the potentially much 
bigger cost of ``false negatives.'' False negatives are instances in 
which a container possesses a threatening nuclear or radiological 
material, but the portal monitor either misidentifies the material as 
non-threatening or does not detect the material at all, thus allowing 
the material to enter the country. During the 2005 Nevada tests, the 
incidence of false negatives among the three vendors who received 
contracts ranged from about 45 percent to slightly more that 80 
percent. This raises concerns because, as explained to us by a 
scientist at a national laboratory, at this level of performance, ASPs 
could conceivably misidentify HEU as a benign nuclear or radiological 
material or not detect it at all, particularly if the HEU is placed 
side by side with a non-threatening material such as kitty litter.
    In recent testimonies before Congress, DNDO's Director has cited 
the primary benefit of deploying ASP monitors as reducing unnecessary 
secondary inspections.\15\ DNDO's cost-benefit analysis focused on 
measuring the benefits of ASP's ability to reduce false alarms--alarms 
that indicate nuclear or radiological material is present when, in 
fact, it is not or such material is actually non-threatening. Reducing 
false alarms would reduce the number of secondary inspections of non-
threatening nuclear and radiological materials and therefore the costs 
of those inspections. Even on this point, however, DNDO's analysis was 
flawed. For example, it did not estimate the costs of secondary 
inspections as they are carried out today. DNDO's analysis needs these 
baseline costs to compare alternatives because without them, it is 
impossible to determine whether the use of ASPs, as planned, will 
result in cost savings for secondary inspections. While we agree that 
facilitating commerce at U.S. ports of entry by reducing unnecessary 
secondary inspections is an important goal, we believe that the primary 
rationale for deploying portal monitors should be to protect the nation 
from nuclear and/or radiological attack. We found that DNDO's analysis 
did not even attempt to measure the level--or value--of security 
afforded by portal monitors.
---------------------------------------------------------------------------
    \15\ Enlisting Foreign Cooperation in U.S. Efforts to Prevent 
Nuclear Smuggling: Hearing Before the House Committee on Homeland 
Security, Subcommittee on Prevention of Nuclear and Biological Attack, 
109th Cong. (May 25, 2006)(statement of Mr. Vayl S. Oxford, Director, 
DNDO); Detecting Smuggled Nuclear Weapons, Hearing Before the Senate 
Judiciary Committee, Subcommittee on Terrorism, Technology, and 
Homeland Security, 109th Cong. (July 27, 2006)(statement of Mr. Vayl S. 
Oxford, Director, DNDO).
---------------------------------------------------------------------------
    In addition, the ASP contract award has exceeded DNDO's estimate 
for total cost by about $200 million. The cost-benefit analysis shows 
the total cost for deploying PVT and ASP monitors to be about $1 
billion, which covers all costs related to acquisition, design, 
maintenance, and physical inspection over 5 years (for both PVT and 
ASP). However, in July 2006, DHS announced that it had awarded 
contracts to develop and purchase up to $1.2 billion worth of ASP 
portal monitors over 5 years. Furthermore, the cost-benefit analysis 
underestimates total deployment costs and does not account for other 
major costs, such as physical inspections of cargo containers, an 
additional procurement of 442 new PVT monitors, installation and 
integration, and maintenance.
    Finally, DNDO overstated the purchase price of PVT monitors. 
Although DHS is currently paying an average of about $55,000 per 
monitor, DNDO's cost-benefit analysis assumed the PVT would cost 
$130,959--the highest published manufacturers' price for the 
government.\16\ According to DNDO's Director, DNDO chose the highest 
published price because the current contract for portal monitors at 
that time was to expire, and the portal monitors will probably cost 
more in the future. However, the information DNDO provided us does not 
explain why DNDO assumes that the future price will be more than double 
what DHS was currently paying, as assumed in DNDO's analysis. PNNL 
officials told us that the future price will almost certainly be lower 
than the price used in DNDO's analysis.
---------------------------------------------------------------------------
    \16\ DNDO, Cost Benefit Analysis for Next Generation Passive 
Radiation Detection of Cargo an the Nation's Border Crossings, May 30, 
2006.
---------------------------------------------------------------------------
    In conclusion, DNDO's approach to the cost-benefit analysis omitted 
many factors that could affect the cost of new radiation portal 
monitors. For these reasons, DHS's cost-benefit analysis does not meet 
the intent of our March 2006 report recommendation to fully assess the 
costs and benefits before purchasing any new equipment.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to respond to any questions that you or other members of the 
Subcommittee may have.

    Mr. Langevin. Thank you, Mr. Aloise.
    I want to thank all the witnesses for their testimony.
    And I will remind each of the members that he or she will 
have 5 minutes to question the panel.
    And I will now recognize myself for 5 minutes.
    Mr. Oxford, with respect to some of Mr. Aloise's testimony, 
I know that you and I have had the opportunity to speak to some 
of these issues. And I wanted to give you the opportunity to 
respond for the record.
    The overriding question that I think most members are 
wondering is if DNDO had preordained its decision to acquire 
ASP technology. And I ask the question based on, in June 2005, 
during testimony before the predecessor to this subcommittee, 
the Prevention of Nuclear and Biological Attack Subcommittee, 
last session, you touted ASP technology as superior to the 
portal monitors already in use.
    Again, in March 2006, roughly 3 months prior to the 
completion of DNDO's cost-benefit analysis, you testified 
before the Senate that portal monitor deployment strategy is an 
optimized mix of current and next-generation technologies. And 
the cost-benefit analysis basically put forth that solution.
    So my question is, does the fact that you made these 
statements well in advance of DNDO's analysis indicate that you 
had already made up your mind, or others had made up their 
mind, on ASPs long before any testing and analysis was 
performed?
    And if you didn't preordain the decision, what was the 
basis of your early confidence in ASPs, given the lack of 
credible comparative performance data?
    Mr. Oxford. Thank you, Mr. Chairman.
    First of all, the only preordination that we did was that 
we needed spectroscopic systems. We did not commit to an actual 
acquisition, as I mentioned.
    We only committed, at the time that we awarded the 
contracts last July, $45 million to the three vendors to 
complete their designs, to develop their engineering 
development model, and then to put them into subsequent 
testing.
    The concerns of the GAO, in some cases, are well-founded, 
but they were not production readiness tests. They were 
intended to allow us to take the 10 vendors that had been under 
contract with us and others--we had a full and open 
competition; we actually had one vendor that came in that had 
not been part of our previous program--to fully compete for the 
down-select for the engineering development phase.
    Upon award of that contract, we awarded a very flexible 
contract that allows us to execute options should performance 
warrant production. We did not want to take another year in 
between engineering and development and production to have to 
go through a separate source selection with these vendors.
    So we did the source selection at one time. We have options 
that extend out to 5 years beyond the current performance 
period. So if the testing we are doing now warrants production, 
we can immediately go into that production.
    But we had every intention of going through a traditional 
development and acquisition process that includes going back to 
our investment review board with the deputy secretary and 
ultimately to the secretary to have him make the decision that 
it was worth $1 billion of this country's money to go to 
production.
    So we have not committed to production. We were always 
committed to doing the prudent testing.
    The test series we have laid out includes the testing at 
Nevada test site against the special nuclear material, the 
radiological material as well as NORM.
    We have also installed these systems at the New York 
Container Terminal so they will be subjected to the stream of 
commerce, so we can fully validate false-alarm rates against 
commerce. We are anticipating 10,000 occupancy as part of that.
    In agreement with CBP, we will also install these systems 
at some number--that is still under discussion--of secondary 
screening operations at ports of entry in this country so CBP 
can look at these in terms of their suitability for operations.
    So we have not yet committed to production. We did order 
some limited low-rate production units to get them into these 
test venues, but that is the only commitment we have made to 
date.
    Mr. Langevin. Let me get back to the issue of the cost-
benefit analysis and the performance numbers.
    Let me ask, in the cost-benefit analysis you assumed a 95 
percent positive identification rate for highly enriched 
uranium, even though the test results for the ASPs was thought 
to vary from 70 to 88 percent.
    In addition, in this test with HEU masked by benign, 
naturally occurring radioactive materials, the same ASP 
monitors dropped to 53, 45, and then 17 percent effectiveness.
    In the last case, that means that dangerous material has 
passed through undetected 83 percent of the time. For that 
system to get to 95 percent effectiveness would require a 560 
percent increase in performance.
    So my question is, how can we justify characterizing those 
ASP systems as 95 percent effective? And are you actually 
expecting this level of performance?
    And we assume by the use of this performance level on your 
cost-benefit analysis--do you intend to wait to deploy these 
units until they are 95 percent effective? And, if not, is it 
important to redo the cost-benefit analysis with actual 
performance data?
    And then, if we could also speak to Dr. Aloise's overall 
inflated numbers, the issue he raised in terms of the cost, 
overall, of the system.
    Mr. Oxford. Sure. As a matter of methodology with DNDO, we 
anticipate doing some cost-benefit analysis early in the 
development cycle for any system. And it is to give us an 
initial gauge as to whether we are, what I will call, in the 
ballpark for continuing R&D.
    But we always intend, as the system matures, to go back and 
redo any cost-benefit analysis based on the production 
readiness testing.
    As I mentioned in the testimony, the tests in 2005 were not 
to prove 95 percent. That is our ultimate goal. It was to prove 
relative performance across the 10 contractors that we had 
under way to see whether we were in a reasonable ballpark for 
the maturity of the systems at that time. But we knew they were 
not fully matured to go into production.
    So it was to down-select, as I mentioned, to go out in a 
full and open competition with those vendors and anybody else 
that wanted to bid to come up with those that we felt like 
could ultimately meet the 95 percent goal.
    That is what we did with the previous test data. It was not 
focused on HEU alone. We tested against an array of dirty-bomb 
material, RDD material, NORM material, as well as HEU.
    We used HEU as kind of the defining case for the CBA, as 
opposed to running multiple CBAs based on every potential 
detection capability or identification capability. But it was 
merely a gauge to show that we needed to continue the program, 
not to go into production at that time.
    And we do intend to redo the CBA with the test results we 
are getting now, along with the other test venues that I have 
mentioned that will also look at operational suitability, in 
addition to the performance factors that we are shooting for in 
the 95 percent range, against that broad array of materials.
    Mr. Langevin. Mr. Aloise, is there anything that jumps out 
that you are concerned about, with respect to the questions I 
asked or the answers that Mr. Oxford gave?
    Mr. Aloise. Mr. Chairman, focusing on the cost-benefit 
analysis and the testing that was done, instead of using the 
test results that were developed during the test in the cost-
benefit analysis, which was presented to us and the Congress as 
the basis for going forward, they used assumptions.
    And I understand, I have heard many times, what the main 
purpose of those tests were: to down-select vendors. But the 
fact remains, that was the best data at the time, probably the 
only data at the time, on the performance of those ASPs.
    There were 7,000 test runs done. There were PVTs set up 
along with the ASPs.
    We are a fact-based organization, and we believe that cost-
benefit analyses need to be based on facts. And they were the 
best facts available at the time, and we think they should have 
been used.
    Instead, assumptions were used. It is always better to base 
analysis on facts than assumptions. And that is the bottom 
line, from where we are coming from.
    Mr. Langevin. Thank you.
    I would now recognize the ranking member of the 
subcommittee, the gentleman from Texas, Mr. McCaul, for 
questions.
    Mr. McCaul. Thank you, Mr. Chairman.
    You know, in analyzing a cost-benefit analysis here, we 
have to look at the risk. The risk is enormously high. This is 
a high-risk game that you are engaged in. It is perhaps the 
highest risk. And the devastation that could come as a result 
of making a mistake--and we don't know if we have already made 
one.
    So, having said that--and I don't want to be redundant, but 
I do want to try to maybe clarify some of the responses here--
the ASP system, as I understand it, is a next generation, it is 
a better technology.
    Mr. Oxford, tell me why this is a better technology, in 
your view. And how does it justify the cost that it presents to 
the American taxpayer?
    And then I will turn it over to Mr. Aloise to answer the 
question, why do you think it is not justified in this case? 
And is it better judgment to stay with the current system of 
the PST technology?
    Mr. Oxford. Thank you.
    And, again, the goal here is to really manage the risk as 
well as the operational burden at our ports of entry. The goal 
of the PVT systems was always to be able to alarm on any 
radiation that existed. But then it is a matter of, what do we 
dismiss and what kind of operational burden do we put on our 
front-line troops to be able to dismiss the nuisance issues 
versus actually deal with the threats that may present 
themselves?
    So the PVT systems have sensitivity that will allow them to 
alarm; they just alarm on everything.
    When we hand secondary screening into a system that relies 
on a hand-held device, a small hand-held device, which is a 
principal secondary tool that has a probability of correct I.D. 
of about 40 percent--and that is a proven performance over many 
periods of time, as opposed to the one test series that we have 
been talking this afternoon--we know that we have got a 
deficiency in the overall screening process, when you have got 
a combined systems performance of detection and I.D. in the 40 
percent range.
    What the ASP does, especially if we can get to this 95 
percent goal, it combines PVT, in some cases, with the next-
generation systems to give us high confidence we are not 
dismissing things that are a threat basis while also reducing 
CBP's workload and being able to dismiss the nuisance alarm.
    Some of the numbers that are coming out of ports of entry 
right now are staggering, in terms of the number of people CBP 
is having to put against the secondary screening load. L.A.-
Long Beach, for example, is averaging 400 to 500 alarms per day 
that has to go into secondary, now taking their CBP officers to 
resolve those alarms, because it is a protocol within CBP that 
they have to resolve every alarm. So, in some cases, they may 
not be doing other missions because of this secondary workload.
    At the higher-volume locations, we ultimately, in agreement 
with CBP, want to put ASP in both primary and secondary just 
because of the sheer volume.
    So the goal here is to be able to do not just detection; it 
is identification. Our probability of success is the 
probability of detection times the probability of 
identification. And what we are trying to do with ASP is 
significantly increase the probability of identification that 
is necessary to manage the threat and the workload at the 
borders.
    Mr. McCaul. And you mentioned 95 percent detection rate, 
that is the goal in 2 years. Is that correct?
    Mr. Oxford. The goal of the ASP program is actually 95 
percent identification.
    Mr. McCaul. And at the Nevada test sites, you are 
conducting these tests currently. Is that right?
    Mr. Oxford. We have actually just completed those. We are 
in the data analysis phase for those tests.
    Again, a full array of highly enriched uranium; weapons-
grade plutonium; neptunium, which is another special nuclear 
material; as well as dirty-bomb material and an array of normal 
occurring material.
    We will then supplement that with the stream-of-commerce 
testing in New York that will give us false-alarm rates against 
what they see daily at an operational port.
    Mr. McCaul. And you will obviously factor that into your 
cost-benefit analysis when you get the results?
    Mr. Oxford. Absolutely.
    Mr. McCaul. --when you have analyzed those.
    Mr. Oxford. When we redo the CBA, it will be based on that 
performance testing that we will then take to the secretary.
    Mr. McCaul. Mr. Aloise, I want to turn it over to you.
    Mr. Aloise. Congressman, I want to make perfectly clear: 
GAO does not favor one type of portal monitor over another. 
Whichever works best for the country works best for us. And I 
know Vayl feels the same way.
    What we are hoping for is that we are buying a margin of 
increased security, not a false sense of security. And that is 
where we are coming from when we look at the cost-benefit 
analysis, because we have not been convinced, looking at that 
specific analysis.
    Mr. McCaul. Again, what is the most troubling aspect to you 
about this new technology, related to the cost?
    Mr. Aloise. Well, the fact is that it costs much more than 
the current technology. Each portal costs about $377,000 per 
portal, as opposed to $55,000 per portal.
    So when we recommended that this analysis be done, what our 
point was: Is the margin of increased security worth the 
additional cost? Because there is a lot, as you know, there is 
a lot of homeland security needs, and it is all a matter of 
risk and how we portion out our scarce resources.
    So what we were hoping to see in that cost-benefit analysis 
is that the increased security is worth the increased cost.
    Mr. McCaul. I see my time has expired.
    Thanks, Mr. Chairman.
    Mr. Langevin. I thank the ranking member.
    The chair will recognize other members for questions they 
may wish to ask of the witnesses. In accordance with our 
committee rules and practice, I will recognize members who were 
present at the time of the hearing based on seniority in the 
subcommittee, alternating between majority and minority. Those 
members coming later will be recognized in the order of their 
arrival.
    The chair now recognizes for 5 minutes the gentleman from 
Texas, Mr. Green.
    Mr. Green. Thank you, Mr. Chairman.
    And I thank the witnesses for appearing today.
    Mr. Oxford, do you differ with the initial statement made 
by Mr. Aloise, his statements about the assumptions versus the 
actual empirical data that was available?
    Mr. Oxford. We don't really disagree on that factor. Again, 
we were using an assumption that was to guide our future 
decisions based on that goal of 95 percent.
    When you look at some of the test data that has been 
quoted, it is against configurations. You would not expect 
passive detectors to work at all, so when we got 45 percent in 
some cases we were happy that we were able to detect anything 
on what turned out to be a fairly well-shielded configuration.
    And I don't want to go into all the technical details, but 
passive detection performance is a function of distance 
velocity shielding, as well as the detector itself. So, in this 
case, we had test configurations that you would not have 
expected much performance with, and we were actually happy for 
those configurations to get the results we did.
    So we did the CBA, again, as a guide to get us to a 
production decision in the future. But we still felt like we 
had to prove that 95 percent in tests that followed the ones 
that were referenced earlier.
    Mr. Green. Are you sufficiently comfortable with your 
results, such that you would do it the same way given the 
opportunity to do it again? Or would his considerations cause 
you to rethink the methodology utilized?
    Mr. Oxford. I think I am very comfortable with the fact 
that we know, when we do an initial CBA early in the 
development of a program, that we have to gauge that based on 
what we think the maturity is at the time.
    But we do not overuse the results of that analysis. Again, 
it was a gauge to say it was worth going into the engineering 
development phase, not production, for these systems and allow 
them to go through the next maturity cycle and then to redo the 
cost-benefit analysis based on performance testing that would 
lead us to production. And that is what we will go to the 
secretary with.
    So getting a gauge early on that the systems are performing 
to the point for their maturity that makes sense was what we 
were trying to do with that CBA and the original testing.
    Mr. Green. Mr. Aloise, could we in Congress have stipulated 
that empirical evidence by used, as opposed to assumptions? 
Could we have constructed this contract, if you will, such that 
we would have used different asset tests?
    Mr. Aloise. Yes, I mean, yes, you could have. But this was 
DNDO's attempt to do a cost-benefit analysis. And they do have 
very good guidelines to follow. In this case, in our view, they 
weren't followed.
    Mr. Green. In your opinion, the guidelines in place were 
sufficient, it is just that they did not adhere to the 
guidelines?
    Mr. Aloise. Yes. DHS has got fairly good guidelines, we 
believe.
    Mr. Green. Can you please give me a specific guideline that 
I can refer to and point to and say, ``This one was not 
followed''?
    Mr. Aloise. Well, I don't have it with me, but I certainly 
could provide that to you.
    Mr. Green. Would you please do so?
    Mr. Aloise. Yes.
    Mr. Green. And it is your position--perhaps the term that I 
will use is too strong--but that guidelines were breached in 
the process?
    Mr. Aloise. In some cases, they were--I think, and I will 
have to check on this--but there were, like, seven major 
guidelines. They fully met one of them, and they partially met 
others, and they did not meet others at all. So we can 
certainly provide that to you.
    Mr. Green. So, of the seven, five guidelines were not 
adhered to, in your opinion?
    Mr. Aloise. Fully adhered to.
    Mr. Green. Fully. Does ``fully'' mean, to you, at least 80 
percent adhered to or above or below?
    Mr. Aloise. I am probably not comfortable putting a 
percentage on it. But we looked at it: Did they fully meet 
these? Did they partially meet these? Or did they not meet 
these at all?
    And so, we actually--I think it was actually one was fully 
met and six were either partially met or not met.
    Mr. Green. Are we the avant-garde in this area? Is there 
any other country that is ahead of us in developing this 
technology?
    Mr. Aloise. This technology? I can only answer that based 
on my experience, which has been about 15 years working in this 
area. I would probably have to say the United States is in the 
lead. Russia does have--we have helped them stall their own 
equipment, but it is basically PVT-type equipment.
    Mr. Green. And finally, you mentioned effectiveness. To 
achieve more than 95 percent effectiveness, am I understanding 
you correctly when you indicate that the cost is going up 
exponentially for 95 percent effectiveness?
    Mr. Aloise. Well, the cost of the new portals, at least 
during the time period we did our analysis of DNDO's analysis, 
was approximately $377,000 per portal for the new-generation 
portal. That did not include installation. The current portal 
is about $55,000. It may have increased since then 10 or 15 
percent, plus installation. So there is a significant increase 
in cost for the new equipment.
    Mr. Green. Mr. Oxford, do you agree with this?
    Mr. Oxford. Actually, I don't agree with much of that. We 
felt like we followed the guidelines. We have not heard any 
specifics that you have just asked for, so we would also be 
interested in the answer on what guidelines we didn't 
specifically follow, because we felt like we followed the DHS 
guidelines.
    Regarding the cost factor, we have a fixed-price?
    Mr. Green. Hold for just one moment.
    Mr. Chairman, if I may ask, after we receive the 
information from Mr. Aloise, may we forward it to Mr. Oxford 
for his response, so that we can have an opportunity to view 
both sides of the concern, if you will?
    Mr. Langevin. Yes, absolutely.
    Mr. Aloise, you would forward that to the committee?
    Mr. Aloise. I would be happy to, yes.
    Mr. Green. Okay. Please, sir.
    Mr. Oxford. Secondly, let me quote a new number. The number 
for a cargo portal PVT system is $78,000. The $55,000 figure is 
for a pedestrian portal, not the cargo portal that we are 
trying to do the comparison with. So the $55,000 should be 
$78,000 in terms of what it cost to buy a cargo portal, which 
is different than what people walk through.
    The installation costs are identical, so really it is the 
$377,000 versus about an $80,000 system that is the right 
comparison. We agree with that number. Installation costs are 
identical between the two kinds of systems.
    Mr. Green. I yield back the balance of my time. Thank you, 
Mr. Chairman.
    Mr. Langevin. The chair now recognizes the gentleman from 
California, Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Mr. Oxford, you are the director of DNDO. Before that, you 
were the director of counterproliferation at the National 
Security Council. Before that, you were deputy director for 
technology development at the Defense Threat Reduction Agency. 
Before that, you were at the Defense Nuclear Agency, you were 
at the Defense Special Weapons Agency. Graduate of the U.S. 
Military Academy, Air Force Institute of Technology. Senior 
executive service, 1997; manager of the year award, 1997.
    I would think you would know what you are supposed to do 
when you have something like this. And I am confused. And I 
don't want to insult either one of you here, because you are 
both doing your job, but if I were to take Mr. Aloise's 
statement on its face, you screwed up big-time. You did what 
you weren't supposed to do. You didn't follow your own 
proceedings. And you are kind of leading us down a big rat hole 
with a lot of money.
    Why?
    Mr. Oxford. First of all, we don't think we are. I 
appreciate the heritage review.
    We are committed, and I think Mr. Aloise has already 
pointed this out--we have talked--we want to do what is good 
for the country, between the two of us. I do think there is a 
legitimate difference of opinion as to what was intended in the 
past versus where we think we are going.
    Mr. Lungren. Well, let me ask my question slightly 
differently. With all that experience you have had, you 
obviously have dealt with development of systems before. You 
have obviously developed cost-benefit analysis. You have 
obviously been involved in the ultimate costs of systems and 
going from the development to the production phase.
    Is this substantially different from what you have done 
before? And if so, was there a reason that it was substantially 
different?
    Mr. Oxford. I can't tell you that in many of the 
experiences in DOD, they wouldn't even have done a cost-benefit 
analysis at the maturity level that we did our first one. 
Again, we used that as a guide. It was not the final cost-
benefit analysis to allow us to start spending the big dollars.
    Mr. Lungren. Years ago, I used to represent the L.A.-Long 
Beach ports. Now my district is 450 miles away, and I am up in 
Sacramento, but I have been to the L.A.-Long Beach ports. I 
have been up to the ports in Seattle.
    I have seen the concerns expressed by other members of this 
committee that we are not moving fast enough to be able to 
screen and scan all of the pieces of cargo that are coming in 
at our ports, both land and water.
    And so, there is no doubt there is a lot of pressure from 
Congress to get you guys moving. And what I am trying to find 
out is, is it because we are pressuring you to get moving 
faster that you did something that is different than you would 
normally do? Or is this the model that at least DNDO is 
adopting in order to get us to the production phase faster? 
And, if so, are there some risks involved because you are using 
estimates as opposed to facts?
    Mr. Oxford. Again, I don't think we would have done this 
differently because we have not yet made that production 
decision. Are we being aggressive? Yes. But we did not stop the 
other deployments.
    The chairman and I had the chance to talk for the last 
couple years on this subject, where we shouldn't wait for new 
technology while keeping ourselves defenseless. That is why you 
see the performance and the improvement.
    But we?
    Mr. Lungren. But, at the same time, you have, what, 400 to 
500 false alarms at L.A.-Long Beach. If you have been to that 
complex and seen the magnitude there, that is unacceptable. I 
mean, ultimately, we just can't do that sort of thing.
    It is like anything else: The more times you have false 
alarms, the less alive people are to the real problem. And 
secondly, the manpower requirements are so great. And thirdly, 
you are going to interfere with commerce at that place if you 
do 400 or 500. You take them out when they should not be taken 
out.
    So there is a real impetus to move in that direction.
    Mr. Aloise, given that, is there another model? Or do you 
disagree with what Mr. Oxford is saying, that we can be 
aggressive in this way and have to, in some ways, because of 
the maturity of the development of the product, use assumptions 
to guide us for a cost-benefit analysis that we might recognize 
is not as pure or accurate as one would be if you were able to 
base it on facts that may not be revealed to you until a later 
date?
    Mr. Aloise. Congressman, we have thought about this a lot. 
We have had a lot of discussions. Vayl is right, we are working 
all toward the same goal.
    It is our opinion that they did the cost-benefit analysis 
too soon. They didn't have the data they needed to do it.
    Our recommendation was designed and it states--I am 
paraphrasing--that, ``Before you do the cost-benefit analysis, 
accumulate as much information as you possibly can about the 
performance of the ASPs. Once you do that, once you know as 
much as you can know about them, then go do your cost-benefit 
analysis.''
    And before any major procurements occur, they ought to know 
if they work and how much they are going to cost. And that was 
the purpose of our recommendation, because of the large cost 
involved.
    Mr. Lungren. Is there any dispute that the ASP technology 
is, by its very nature, better than--that is, an advance over 
the PVT?
    Mr. Aloise. If it works as advertised, it would be an 
advance over the PVT.
    Mr. Lungren. Could I just ask one more question?
    What I am asking is, the basic science involved: Is there 
any question about the science involved that ASP should be 
better than PVT?
    Do you want to go first?
    Mr. Oxford. We are convinced that the sodium iodide 
technology specifically that is the mainstream of two of the 
three vendors is a well-known technology.
    I will tell you one thing that DNDO is doing that has not 
been done in the detector community in the past is merge the 
signal processing, or the software community, with the detector 
community. The power here is in the software. And that is where 
the uncertainty of whether we get to 95 percent, where we can 
truly identify every specific isotope, is where the critical 
factors are. And that is why we have to test against real 
materials that we concern ourselves with.
    There is no doubt in my mind that we will get there, but it 
will be through software upgrades. So the question that I will 
have at the end of these current tests: Is it good enough to 
begin the initial deployment while we continue to refine the 
software?
    Mr. Lungren. Thank you very much, Mr. Chairman. Thank you 
for your indulgence.
    Mr. Langevin. I thank the gentleman for his line of 
questioning.
    The chair now recognizes the gentleman from North Carolina, 
Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman.
    And, Mr. Chairman, I didn't slip out because I thought we 
were being punished in here with the heat.
    [Laughter.]
    I noticed some people with handkerchiefs out, wiping.
    Mr. Langevin. I thought you folks in North Carolina liked 
it that way.
    [Laughter.]
    Mr. Etheridge. Oh, man.
    Mr. Lungren. Could we have a GAO report?
    Mr. Etheridge. We don't normally expect the heat in March, 
Mr. Chairman.
    Mr. Lungren. Mr. Chairman, could we ask for a GAO report on 
the quality of the air conditioning in this room?
    [Laughter.]
    Mr. Etheridge. Thank you.
    Let me thank both of you for being here.
    And thank you, Mr. Chairman.
    And let me ask the question a little differently, because I 
think this is sort of the heart of what we are trying to get 
to.
    Because, Mr. Oxford, in your written testimony, you state 
that DNDO always intended to validate its test before making 
production decisions.
    However, it appears that the intent of DNDO is to quickly 
phase out the old systems that are pretty well proven, as you 
said earlier, that work.
    And the reason I ask that question is--and replace it with 
ASP--is that the numbers I have been given--and this way I will 
ask a question, so hopefully I can get a clarification on it--
the numbers indicate that, for 2007, the plan is to put over 
150 monitors, with 90 percent of them being ASP. And in 2008, 
the plan not only increases the number, but it deployed--it is 
employed by 50 percent.
    So my question is this: You know, as we talk about totally 
phasing out the other one before we have got this stuff, it 
seems to be a disparity between these figures, the low-rate 
production contract and DNDO's claim that the office is still 
in a research phase.
    Has a decision been made--I assume it has, or has it--on 
ASP even before testing is complete?
    And, number two, given that there are still technological 
hurdles, as you have indicated, to overcome, would it make 
sense to phase in the change over a longer period of time, 
since we don't have the answers to the questions at this point?
    I will give you a chance to clear that up, if you would, 
please.
    Mr. Oxford. Thank you very much.
    What we did, upon contract award, is we did order 80 low-
rate production units, but that was primarily to fit into this 
test protocol that I have mentioned before, the various test 
venues. It takes several units to do that.
    The rest of the units you have talked about are on hold 
pending a secretarial certification. So we are not buying any 
additional systems until we complete this?
    Mr. Etheridge. Tell us what ``secretarial certification'' 
means.
    Mr. Oxford. The 2007 appropriations act requires that we 
have the secretary certify performance, that we are getting a 
significant increase in performance from these systems, before 
we go into production. That is a criteria that we are living 
with, so no other systems are being procured until such time as 
we come out of this test series and the secretary makes that 
decision.
    In addition, we are not really phasing out the old systems. 
We have a deployment strategy with CBP that we will rely on 
into the future, a mix of current-generation and the next-
generation systems, based on the volume, the workload, the 
threat basis.
    But, again, that is worked directly in conjunction with 
CBP. So, in some cases, if we go in and install an ASP system 
where a current PVT system is, we will take that out, refurbish 
it and relocate it, based on the deployment strategy we have 
with CBP.
    Mr. Etheridge. All right.
    Given that, in your testimony, Mr. Oxford, you say that you 
plan to work with the GAO to foster better understanding of 
development, acquisition and testing approaches.
    My question is, what steps have you taken to do that?
    Mr. Oxford. We have had an additional entry meeting with 
Mr. Aloise's people. They have asked for a series of documents. 
They have posed questions to us. They have seen now--we have 
provided, it should be in their hands--I know we have released 
it--the test plan for the testing that was going on at the 
Nevada test site, so they can fully see how we are doing the 
testing, what we are testing against. Meanwhile, we are 
answering a series of additional questions that will result in 
continued dialogue in this area.
    Mr. Etheridge. Mr. Aloise, do you see DNDO taking step to 
change its procedure? And what specifically do you think they 
need to do to further improve the process? Because we want to 
help. That is our role; we want to help. So I hope you will 
share that with us.
    Mr. Aloise. I think the better communication that we have 
established between Vayl and I will help on that level. In 
terms of the equipment itself, we are going to be looking at 
the test results from the test that is being conducted now and 
we will be conducting again shortly. And we will look at the 
protocols, we will look how the tests have been conducted, and 
then we will see how the information is used.
    Mr. Etheridge. Mr. Chairman, I would hope that, as this 
moves along--because we are talking about a critical issue, and 
a lot of resources being applied to it--that this committee 
would be informed of that as it moves along.
    Mr. Langevin. I agree.
    Mr. Etheridge. Thank you. I yield back.
    Mr. Langevin. Thank you.
    Well, I want to thank the witnesses for their valuable 
testimony, the members for their questions.
    I know, as we have all acknowledged, you both are working 
for the good of the American people. And, obviously, we have a 
very difficult job to do. As we have said, we have to get it 
right all the time; the terrorists only have to get it right 
once. And I know that you all are working very hard to protect 
the nation, and we are grateful for your service.
    Just on a personal note, I have had the opportunity to 
travel, as you know, Mr. Oxford, to the nuclear test facility 
in Nevada. It is an impressive operation, and I know it will 
only get better with time.
    I have been out to the port of Long Beach and had the 
opportunity to see the nuclear detection equipment in 
operation. And that, too, is an impressive operation.
    And we want to do what we can to work with you to improve, 
as time goes on. We hope that today's give-and-take has been 
helpful. It certainly has been for me, and I think the other 
members agree. Hopefully it will get better in time.
    Certainly, Mr. Aloise, I look forward to having you forward 
the criteria to us, and we will get that to DNDO, and look 
forward to further dialogue.
    Again, I want to thank the witnesses for their testimony. 
If the members of the subcommittee have any additional 
questions for the witnesses, we will ask that you respond 
expeditiously in writing to those questions.
    And hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 3:23 p.m., the subcommittee was adjourned.]


     EVALUATING THE DEPLOYMENT OF RADIATION DETECTION TECHNOLOGIES



                               PART II

                              ----------                              


                       Wednesday, March 21, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
           Subcommittee on Emerging Threats, Cybersecurity,
                                and Science and Technology,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 3:08 p.m., in 
Room 1539, Longworth House Office Building, Hon. James Langevin 
[chairman of the subcommittee] presiding.
    Present: Representatives Langevin and McCarthy.
    Mr. Langevin. [Presiding.] The subcommittee will come to 
order.
    The subcommittee today is meeting to receive testimony on 
``Countering the Nuclear Threat to the Homeland: Evaluating the 
Deployment of Radiation Detection Technologies.''
    Good afternoon, everyone. I want to welcome you to today's 
hearing, ``Countering the Nuclear Threat to the Homeland: 
Evaluating the Deployment of Radiation Detection 
Technologies.''
    Before we begin with the substance of the hearing, I would 
like to just take a minute to say a few words about the 
committee rules regarding testimony.
    Our committee rules require that the testimony be submitted 
48 hours before the hearing, and this is intended to allow all 
members the opportunity to read through the entire testimony, 
which is usually longer, obviously, and more detailed than the 
5-minute summary that witnesses are afforded at the hearing.
    For today's hearing, we received one testimony last night, 
about 6 p.m., and the other today, about 10:30, only a few 
hours before the hearing. And it is difficult to do business 
this way, and I would rather not have this happen in the 
future.
    I realize that the fault doesn't lie entirely with our 
witnesses and that clearing testimony through OMB is a slow and 
torturous process sometimes and that we need to figure out a 
way to speed up OMB, which probably an impossible thing to do, 
and get the testimony in with a couple days to spare.
    So we want to make, obviously, the most productive use of 
your time and ours, and we appreciate your help in the future 
on that.
    Now, turning back to the substance of today's hearing, this 
subcommittee is tasked with one of the most daunting challenges 
that confronts our society today: securing our nation from 
terrorists who are constantly thinking of new and innovative 
ways to harm us.
    Because of nearly unimaginable consequences associated with 
the success of a nuclear attack, there is broad agreement that 
the threat of nuclear terrorism must be one of our top 
priorities.
    Last week, we heard from Director Oxford on our efforts to 
procure radiation detection equipment, and today we will focus 
on where this critical technology is being deployed along our 
many ports of entry.
    I would like to thank Mr. Oxford for taking the time once 
again to come before us and dialogue with us again today. I 
understand that your schedule must obviously incredibly tight 
these days, but the subcommittee really appreciates you being 
here once again.
    Last Congress, our predecessor Subcommittee on Prevention 
of Nuclear and Biological Attack held numerous hearings to 
examine the areas where we are most vulnerable to nuclear 
attack. I believe that we have made significant strides to 
close some of the existing gaps, but there is still much work 
ahead of us.
    We must continue to focus our efforts on a three-pronged 
comprehensive approach, encompassing prevention, detection and 
response to fully secure our nation from nuclear attack. 
Clearly, intelligence is the best tool that we have to prevent 
any terrorist attack, including a nuclear one, but, as we all 
know, intelligence is not always reliable, so we must ensure 
that we have other robust tools at our disposal.
    Now, we have all heard the most likely scenario, that a 
terrorist could build a crude nuclear device abroad and then 
attempt to smuggle it into the country. Well, we must continue 
to focus our efforts on securing nuclear material abroad, but 
we must also deploy the best available detection technology at 
every port and point of entry into this country.
    Our radiation portal monitors are our last best chance to 
prevent catastrophic nuclear or radiological attack. Over 90 
percent of the world's trade moves in cargo containers, with 20 
million containers arriving at U.S. ports of entry annually. 
This highlights just how important it is that we have adequate 
detection devices at all of our seaports and borders.
    And while we have done a good job of deploying this 
lifesaving technology at our most heavily trafficked points of 
entry, we must work to deploy it on every point, even those 
less populated.
    I was happy to see that the supplemental appropriations 
bill to be considered this week includes $100 million for 
customs and border protection to be used for up to 1,000 
additional personnel for its mission.
    The bill also includes $400 million for the Domestic 
Nuclear Detection Office to continue to acquire and deploy 
radiation portal monitors.
    Director, so far you have made good progress. As of 
February 2007, radiation portal monitors were scanning 100 
percent of all U.S. mail, 89 percent of all cargo entering 
through our U.S. seaports, 96 percent of cargo at the southern 
border and 91 percent at the northern border, with expected 
increases to 97 percent at seaports and 99 percent at the 
southern border by the end of 2007.
    And just to pause for a second, to be clear, this is 
scanning, not inspections, which are different. It is a 
separate issue, but we are making progress.
    In order to scan this much cargo, roughly 1,000 RPMs have 
been deployed. Future deployed designed to scan 100 percent of 
all conveyances will require an additional 1,500 to 2,000 units 
over a deployment schedule through fiscal year 2013.
    And I would like to make sure that current and future 
appropriations will give you the resources that you need and 
personnel and equipment to complete this important mission, and 
I would also like to hear from our witnesses about, in genera, 
where this technology will be deployed in the future, 
particularly in some of the less populated areas along the 
northern border.
    We can delve into some of the specifics in a closed 
session, off the record, at a later time, but, in general 
terms, I would like to address those.
    We must also ensure that CBP and DNDO are working together 
effectively on this mission. These two agencies must continue 
to partner and corroborate on how best to deploy this 
lifesaving technology, and I look forward to hearing both from 
Mr. Ahern and Mr. Oxford on how they are working toward this 
end.
    I want to thank both of our witnesses for being here today, 
and I look forward to a discussion of these issues.
    The gentleman from Texas, Mr. McCaul, is on his way. When 
he does arrive, we will pause and allow him to make his opening 
statement, and other members of the subcommittee will be 
allowed to submit opening statements for the record at a future 
time.
    To our witnesses, I want to welcome you both here today.
    Our first witness, Mr. Vayl Oxford, is the director of the 
Domestic Nuclear Detection Office, a position that he has held 
since April of 2005. DNDO serves as the primary entity for the 
United States government to improve the nation's capability to 
detect and report an authorize attempts to import, possess 
store, develop or transport nuclear or radiological material 
for use against the nation and to further enhance this 
capability over time.
    Our second witness, Mr. Jayson Ahern, is the assistant 
commissioner of the Office of Field Operations, U.S. Customs 
and Border Protection, a position that he has held since March 
2003. He manages an operating budget of $2.5 billion and 
directs activities of more than 24,000 employees. In that 
capacity, he oversees national programs and operations at 20 
field operations offices, 326 ports of entry, 50 operational 
Container Security Initiative ports worldwide.
    So, without objection, the full witnesses' statements will 
be inserted into the record.
    I welcome you both here today, and I ask each witness to 
summarize your testimony, beginning with Mr. Oxford.
    Welcome, gentlemen.

  STATEMENT VAYL OXFORD, DIRECTOR, DOMESTIC NUCLEAR DETECTION 
            OFFICE, DEPARTMENT OF HOMELAND SECURITY

    Mr. Oxford. Good afternoon, Chairman Langevin. I am happy 
to be here again this week.
    As you know, DNDO is not only responsible for developing 
new technologies but works with CBP in the deployment of 
detection systems to our ports of entry.
    I would like to thank the committee for the opportunity to 
discuss how we are going about deployment to the northern and 
southern land borders. I am also pleased to be here with my 
colleague, Assistant Commissioner Ahern, who works with me, and 
our teams work very closely together.
    A lot of recent emphasis has been placed on deployment of 
radiation detection equipment to our seaports. This is an 
essential step in securing our nation, but it is only part of a 
broader strategy to provide detection capabilities to all POEs.
    By the end of 2007, our goal is to scan 98 percent of all 
maritime containers entering the U.S. We are closely coupled 
with CBP in this regard. We have developed a joint program 
execution plan that both Mr. Ahern and I have signed to 
indicate our joint venture in this area.
    Overall, we are making good progress on the northern and 
southern land border deployments. Two years ago, less than 40 
percent of incoming container ICE cargo was being scanned for 
radiological and nuclear threats at our land borders. Today, 
there are 241 RPMs operating on the northern border, 329 RPMs 
on the southern border. This results in 91 percent container 
ICE cargo coming across the northern border being scanned and 
96 percent coming across the southern border.
    We are also conducting screening of privately operated 
vehicles. We currently scan 81 percent of the POV traffic 
coming across the northern border as well as 91 percent across 
the southern border.
    These metrics tell a positive story, but a lot of work 
remains. We have about 50 percent geographic coverage across 
the northern and southern border. Of the 611 RPMs required on 
the northern border, about 40 percent are in place. Likewise, 
of 380 required on the southern border, 88 percent are in 
place.
    Our strategy has been to focus on volume. Our priority 
remains to finish deploying RPMs to high-volume seaports and 
land crossings. However, our future plans do address the 
smaller crossings that dot the northern and southern borders, 
to include rail crossings. We will also begin screening of 
international air cargo. We plan to deploy 165 RPMs in 2007 and 
274 RPMs in 2008 to both seaports and land crossings.
    We have prioritized installations based on risk, 
vulnerability or consequence, as influenced by population, 
industries, imports to the economy and the supply chain, as 
well as any key installations that are nearby. Finally, we 
consider whether locations have planned port reconfiguration.
    To prepare for additional deployments, we are already 
conducting site surveys, developing site designs and starting 
negotiations to award construction contracts for each of these 
future crossings.
    Meanwhile, we are also increasing focus on threats entering 
the United States between our POEs. We are working with the 
Border Patrol to develop a joint strategy to provide improved 
detection capabilities to their agents. They require mobile 
applications in addition to connectivity so that alarm data can 
be communicated and resolved quickly.
    We are developing improved human portable systems at the 
Border Patrol, as well as the Coast Guard and Navy. As a point, 
the deployment of radiation detection equipment capabilities to 
all Coast Guard boarding teams will be complete by the end of 
2007.
    In conclusion, DNDO is acutely aware that we must continue 
to deploy systems to our seaports and our northern and southern 
land borders. We are working closely with our users to deploy 
these systems. DNDO is committed to providing the capabilities 
needed to successfully detect and respond to radiological and 
nuclear threats.
    Mr. Chairman, this concludes my prepared statement. I will 
be glad to answer any questions you might have.
    [The statement of Mr. Oxford follows:]

                  Prepared Statement of Vayl S. Oxford

                       Wednesday, March 14, 2007

Introduction
    Good afternoon, Chairman Langevin, Ranking Member McCaul, and 
distinguished members of the subcommittee. I am Vayl Oxford, Director 
of the Domestic Nuclear Detection Office (DNDO), and I would like to 
thank the committee for the opportunity to discuss how we are testing 
and evaluating next-generation technologies. In particular, I would 
like to describe the certification process, required by the FY 2007 
Appropriations bill that the Advanced Spectroscopic Portals (ASPs) will 
undergo before we commit to purchasing and deploying the systems.
    DNDO recognizes that there were concerns raised in the Government 
Accountability Office (GAO) report entitled, ``Combating Nuclear 
Smuggling: Department of Homeland Security's Cost-Benefit Analysis to 
Support the Purchase of New Radiation Detection Portal Monitors Was Not 
Based on Available Performance Data and Did Not Fully Evaluate All the 
Monitors? Costs and Benefits,'' dated October 12, 2006. Nonetheless, we 
stand behind the basic conclusions of the cost benefit analysis (CBA). 
We realize there may have been a misunderstanding as to the intent of 
certain test series, the types of data collected, and the conclusions 
that were drawn. It is my hope that the information we provide today, 
including our path forward for the ASP program, is testament to the 
careful consideration we have given to our investments in ASP systems 
and, in turn, the GAO's concerns pertaining to next-generation 
technology.
    I would like to make it clear that DNDO remains committed to fully 
characterizing systems before deploying them into the field. This is a 
founding principle of our organization and we maintain a robust test 
and evaluation program for this purpose.
    Before I go into more detail about our test program and the 
upcoming certification of ASP systems, I would like to highlight some 
DNDO accomplishments which have occurred since I last appeared before 
this committee.

    DNDO Accomplishments and Activities
    As we continue to test and develop radiation portal monitors (RPMs) 
for use at our ports, we are also expanding security beyond our ports 
of entry. In FY2007, DNDO will develop and test several new variants of 
passive detection systems based upon ASP technology. These include a 
planned retrofit of existing CBP truck platforms, commonly used at 
seaports, and the development and performance testing of an SUV-based 
prototype system suitable for urban operations, border patrol, and 
other venues.
    The Systems Development and Acquisition Directorate is also 
executing the first phase of engineering development associated with 
the development of the Cargo Advanced Automated Radiography Systems 
(CAARS) system. A dominant theme within the nuclear detection community 
is that comprehensive scanning for smuggled nuclear materials requires 
both automated passive technologies and automated radiography systems. 
While ASP is DNDO's next generation passive detection system--providing 
an enhanced probability of success against unshielded or lightly 
shielded materials; CAARS will complement the ASPs by providing rapid 
automated detection of heavily shielded materials that no passive 
system can find. These two systems must function together to 
successfully detect nuclear threats at our Nation's ports. The three 
contractors selected by DNDO will proceed with system design and 
development efforts this year--including the development of many of the 
critical hardware and software components. DNDO, in coordination with 
Customs and Border Protection, will prepare the first CAARS deployment 
plan--describing in detail, where and how the CAARS units will be 
initially deployed, as well as a preliminary CAARS Cost Benefit 
Analysis and radiation health physics study.
    DNDO also continues to develop handheld, backpack, mobile, and re-
locatable assets with improved probability of identification, wireless 
communications capabilities, and durability. One specific goal is to 
deploy radiation detection capabilities to all U.S. Coast Guard 
inspection and boarding teams by the end of 2007. DNDO awarded 
contracts to five vendors in October 2006 for development of Human 
Portable Radiation Detection Systems (HPRDS), each of which will 
develop a HPRDS prototype unit. One promising HPRDS technology is the 
introduction of a lanthanum bromide detection crystal that may provide 
an extremely effective threat material identification capability along 
with a low false alarm rate. DNDO will also pursue research and 
development to standardize the flow of data to ensure rapid resolution 
of spectra acquired in the field, that need further validation as a 
threat or benign substance.
    With regard to Advanced Technology Demonstrations (ATDs), DNDO will 
further develop the existing and proposed ATDs in FY 2007. We held the 
first preliminary design review of Intelligent Personal Radiation 
Locator (IPRL) on February 28th. Further critical design reviews of the 
IPRL ATD will be conducted in mid-FY08, to be followed by performance 
testing and cost-benefit analysis in late-FY08 and early-FY09. An 
additional ATD for Standoff Detection will also be initiated in FY2007. 
Under this ATD, various imaging techniques will be evaluated for 
sensitivity, directional accuracy, and isotope identification accuracy 
with a goal of extending the range of detection to as much as 100 
meters, enabling a new class of airborne, land, and maritime 
applications.
    The Exploratory Research program is continuing to work in support 
of future ATDs to understand and exploit the limits of physics for 
detection and identification of nuclear and radiological materials as 
well as innovative detection mechanisms. A few examples of exploratory 
topics include a new technique that would extend the ability of passive 
detectors to verify the presence of Special Nuclear Material (SNM) 
through shielding and creation of new detector materials that would 
perform better and cost less than current materials.
    DNDO, in collaboration with the National Science Foundation (NSF), 
is beginning the Academic Research Initiative to fund colleges and 
universities to address the lack of nuclear scientists and engineers 
focusing on homeland security challenges through a dedicated grant 
program. A NSF survey shows a downward trend since the mid-1990s of 
nuclear scientists and engineers in the United States of approximately 
60 per year. In 1980, there were 65 nuclear engineering departments 
actively operating in the U.S. universities; now there are 29. 
Currently, it is estimated that one-third to three-quarters of the 
current nuclear workforce will reach retirement in the next 10 years. 
Projections forecast the requirement for approximately 100 new Ph.D.s 
in nuclear science per year to reverse these trends and support growing 
areas of need. In order to address this requirement, the DNDO and NSF 
recently issued a solicitation for the Academic Research Initiative, 
which will provide up to $58M over the next five years for grant 
opportunities for colleges and universities that will focus on 
detection systems, individual sensors or other research relevant to the 
detection of nuclear weapons, special nuclear material, radiation 
dispersal devices and related threats. DNDO's Operations Support 
Directorate provided Preventative Rad/Nuc Detection training to 402 
operations personnel in six state and local venues in FY 2006. We 
sponsored, designed, developed, and conducted the New Jersey multi-
jurisdictional rad/nuc prevention functional exercise, Operation 
Intercept, in September 2006, with approximately 60 players (operators, 
law enforcement, fire/hazmat, intelligence analysts, etc.). DNDO's 
FY2007 goal is to train 1,200 State and local operators in Basic, 
Intermediate and Advanced Preventive Rad/Nuc Detection courses. DNDO 
Training and Exercises activities will also support DHS planning for 
the TOPOFF 4 full-scale exercise to be held in 4th Quarter FY 2007. 
DNDO is coordinating closely with other Federal agencies and State and 
Locals in developing radiological/nuclear scenarios.
    The Southeast Transportation Corridor Pilot (SETCP) was initiated 
this past year to deploy radiation detection systems to interstate 
weigh stations. SETCP provided detection technologies (radiation portal 
monitors and mobile and handheld detection equipment) to five of the 
nine participating States in 2006, and this year we will equip the 
remaining states. Also, this year we plan to conduct a multi-state 
SETCP functional exercise using the weigh stations, the Southeast 
Regional Reachback Center, and the Joint Analysis Center (JAC).
    The Securing the Cities (STC) Initiative is moving forward as we 
work with New York City (NYC) and regional officials (led by the New 
York Police Department) to develop an agreed-upon initial multi-
jurisdictional, multi-pathway, defense-in-depth architecture for the 
defense of the NYC urban area. DNDO will conduct an analysis-of-
alternatives for the deployment architecture, develop equipment 
specifications to address the unique needs of urban-area detection and 
interdiction, and develop and test these detection systems.
    In FY 2006 a program to enhance and maintain pre-event/pre-
detonation rad/nuc materials forensic capabilities was funded within 
the DHS S&T Directorate. That program transferred to DNDO on October 1, 
2006. Concurrently, the DNDO established the National Technical Nuclear 
Forensics Center (NTNFC) to serve as a national-level interagency 
stewardship office for the Nation's nuclear forensic capabilities. 
Staff for this office includes experts from DHS, DoD, FBI, and DOE. 
Agencies are working together in a formal interdepartmental forum 
consisting of a senior level Steering Group and Working Groups for 
centralized NTNF planning, integration, and assessment. FY 2007 planned 
accomplishments include developing a strategic NTNF program plan and 
associated concept of operations (CONOPs) for rad/nuc forensics. These 
documents will describe and detail the roles and responsibilities of, 
and interactions between Federal agencies involved in the detection, 
collection, and forensic analysis of radiological/nuclear material(s) 
and device(s). DNDO will also establish a National Technical Nuclear 
Forensics (NTNF) Knowledge Base. This knowledge management program will 
include the creation of a knowledge base and analysis tools to support 
the timely and accurate interpretation of nuclear forensics data and 
information sharing among partners.

    Benefits of Next-Generation Detection Technology
    Now, I would like to discuss the ASP Program and our efforts in 
reference to the Cost Benefit Analysis and the steps required for 
certification. Our desire to introduce next-generation radiation portal 
monitors (RPMs) into screening operations stemmed from inherent 
limitations in the current-generation polyvinyl toluene (PVT) 
detectors. PVT detectors can detect the presence of radiation but 
cannot identify the specific isotopes present. Currently, CBP relies on 
hand-held radio-isotope identifier devices (RIIDs) during secondary 
screening to provide isotope identification capability. Introduction of 
isotope identifying ASP technology in secondary screening applications 
will greatly increase the overall effectiveness of CBP screening. PVT 
portals installed for primary screening will effectively alarm on all 
sources of radiating material. This unfortunately includes nuisance 
alarms such as granite tiles, ceramics, kitty litter and other 
naturally occurring radioactive material (NORM). Next-generation 
technology will improve upon the identification capabilities of current 
systems, and minimize the diversion of trucks and containers filled 
with legitimate commerce to a secondary inspection area where CBP 
Officers conduct a rather time-consuming, thorough investigation prior 
to release of the vehicle. This technology will be especially important 
for high volume or high NORM rate POEs, as it will lessen the burden on 
secondary inspection stations and the associated impact to the stream 
of commerce and CBP. Spectroscopic systems, like ASP, that use the 
signature of the radiation to make a simultaneous ``detection and 
identification'' decision provide one possible solution to this 
problem. However, further development and testing is required to 
resolve some remaining issues concerning the use of ASPs in primary, 
such as the potential masking of SNM by a large NORM signature.
    In accordance with DHS Investment practice, DNDO executed a classic 
systems development and acquisition program for ASP. Namely, DNDO 
implemented a program that consisted of concept evaluation, prototype 
development and test, an engineering development phase, a low-rate-
initial production phase--and eventually a full-rate production phase.
    During the concept development phase, DNDO issued a Broad Agency 
Announcement to industry--and competitively awarded ten contracts for 
the development of prototype units. DNDO then tested the prototype 
units in the winter of 2005, again during the concept development phase 
of the program, and used these test results as part of the competitive 
source selection process to select vendors to proceed with engineering 
development. Subsequent to the award of three ASP engineering 
development contracts to Thermo-Electron Corporation, Raytheon 
Corporation and Canberra Industries, DNDO directed the development of 
one ASP Engineering Development Model--or EDM--designed and built with 
the rigor necessary to be found suitable for production. Production 
Readiness Testing, including System Performance Testing against 
significant quantities of SNM at the Nevada Test Site, Stream-Of-
Commerce Testing at the New York Container Terminal, and System 
Qualification Testing, which includes shock, vibration, and other 
environmental testing, is being conducted as we speak.
    As I address many detailed concerns--I think it is very important 
to preface my statements by reiterating that the Winter 05 prototype 
test was never intended to be a production readiness test--nor a formal 
developmental test. The tests were designed to facilitate the 
competitive process by selecting those vendors that would receive 
further engineering development contracts, based in part, on the 
performance of their prototype systems. Much of the perceived confusion 
with regard to ASP performance stems from a miscommunication with 
regard to what the test results mean and what they do not mean and the 
complete evaluation process for ASP.

Cost-Benefit Analysis
    Let me briefly address the ASP cost-benefit analysis. As I 
mentioned earlier, DNDO developed a first-cut cost benefit analysis 
(CBA) in the concept development phase of the ASP Program. Many DHS 
programs, such as ASP, produce a CBA in the concept development phase 
and subsequently update it as part of what the Department has referred 
to as Key Decision Point Three--the full-scale full-scale production 
milestone decision. An initial CBA (based simply upon studies, 
analyses, and modeling results) is required for all DHS investments 
during the concept development phase to determine whether further R&D 
investment is prudent.
    The CBA fundamentally considered five different alternative 
configurations of radiation detection equipment at a CBP Ports of 
Entry. Specifically, the alternatives included:

        #1--referred to as the `status quo' alternative consisted of 
        the use of a current-generation PVT-based RPM in what is 
        referred to as `Primary Inspection' coupled with a second such 
        system in secondary inspection--along with a current generation 
        handheld device used for identification.
        #2--referred to as the ``adjusted threshold'' alternative; is 
        identical to alternative #1 except that the PVT systems are set 
        to their maximum sensitivity and, hence, experience the highest 
        false alarm rate
        #3--referred to as the `enhanced secondary' alternative; 
        consists of a current-generation PVT-based RPM system in 
        primary with an ASP Portal in `secondary'.
        #4--referred to as the `hybrid' alternative where ASP systems 
        are deployed in primary and secondary locations for high volume 
        and high NORM rate POEs and PVT systems are used in Primary 
        with an ASP in secondary for medium and low volume ports
        And #5--referred to as the `All ASP' alternative; consists of 
        placing ASP in both primary and secondary inspection areas.
    Each alternative was evaluated on the basis of probability to 
detect and identify threats, impact on commerce, and soundness of the 
investment.
    The preferred alternative recommended by the CBA was a hybrid 
approach consisting of ASP systems for primary screening at high-volume 
ports of entry (POEs), PVT systems for primary screening at medium and 
low-volume POEs, and ASP systems for all secondary screening. The DNDO/
CBP Joint Deployment Strategy describes the way in which the mix of PVT 
and ASP portals would be deployed to maximize the benefit of ASP, while 
minimizing the cost. We plan on initiating a phased installation by 
first installing the monitors for secondary inspection. This will allow 
CBP to gain operating experience and allow time to further evaluate the 
ASPs as a primary inspection tool.
    DNDO met on multiple occasions with the GAO staff to discuss the 
CBA methodology, assumptions, data sources, and results and the fact 
that this was an initial CBA, suitable for the Concept Development 
phase of a program. We worked extensively with the GAO to further 
refine the CBA and provided written responses to the GAO documenting 
the technical rationale for DNDO's approach.
    Nonetheless, confusion remained about our prototype test 
activities. Specifically, the GAO criticized DNDO for assuming a 
probability of detection of 95 percent, even though the Winter-05 test 
results did not show this same capability. Once again, as I mentioned 
above, the Winter-05 test results cited by the GAO were not intended to 
determine the absolute capabilities of deployed systems; rather, they 
were intended to support initial source selection decisions. We remain 
committed to high fidelity testing and are currently conducting a 
complete set of System Performance tests prior to ASP Full Rate 
Production.
    The GAO reported that DNDO tested the performance of PVT and ASP 
systems side-by-side, but did not use these results in the CBA. Again, 
the test series referenced was not intended to provide an objective 
side-by-side comparison of PVT and ASP systems; it was intended solely 
to provide an objective side-by-side comparison of the competing 
vendors' prototypes. While the Winter-05 Tests were aimed at ASP source 
selection, it is the tests we are conducting now--the Winter-06 Tests--
that are aimed specifically at assessing the cost-benefit associated 
with ASP and will therefore provide an ASP and PVT and Handheld side-
by-side analysis that one would expect to see at this point in the 
program.
    The GAO also stated that the CBA only evaluated systems' ability to 
detect highly enriched uranium (HEU) and did not consider other 
threats. DNDO agrees that threats other than HEU are equally 
important--and our Winter 06 test is evaluating the Production ASP 
units against a full set of Special Nuclear Materials--including those 
that might be used for an improvised nuclear devise and those that 
might be used for a radiological dispersal device.
    We agree with the GAO that further test and evaluation of ASP 
systems must occur. Indeed, DNDO always planned on validating its 
assumptions through further testing prior to making a production 
decision.
    Upon the successful completion of its ASP evaluation, DNDO intends 
to request Key Decision Point Three (KDP-3) approval--that is 
permission to enter full rate production of ASP--in the summer of this 
year. Our request will be based upon completed and documented test 
results from test campaigns to be conducted at NTS, NYCT, and at 
contractor facilities; as well as interim results from deployment 
integration testing to be conducted at the Pacific Northwest National 
Laboratory (PNNL) Integration Laboratory (frequently referred to as the 
331G facility), and one or more field validation efforts in which an 
ASP unit is installed in ``secondary screening'' at an operational POE 
in tandem with existing approved interdiction systems.
    The test results from this campaign will facilitate the Secretary's 
certification decision that is called for in the FY 2007 Homeland 
Security Appropriations Act (P.L. 109-295). DNDO will commit to full-
rate production only after we are confident that ASP systems 
significantly upgrade our detection capabilities and operational 
effectiveness and that they meet the Department's goal to protect our 
Nation from dangerous goods. DNDO will use a combination of cost-
benefit analyses as well as demonstrated performance metrics to assist 
in the Secretary?s certification decision.

Contract Awards for ASP
    As I have stated earlier, one of our major accomplishments this 
past year was issuing Raytheon Company--Integrated Defense Systems, 
Thermo Electron Company, and Canberra Industries, Inc. contract awards 
for engineering development and low-rate initial production of ASP 
systems. Initial ASP contract awards totaled approximately $45 million. 
The priority for the base year is development and testing of the fixed 
radiation detection portal that will become the standard installation 
for screening cargo containers and truck traffic. The total potential 
award of $1.2 billion, including options, will be made over many years, 
based upon performance and availability of funding.

Future Deployment
    DNDO intends to deploy ASP systems to the Nation's POEs based on 
the Joint Deployment Strategy I referenced earlier. In addition, ASP 
systems will be deployed overseas through the Department of Energy's 
(DOE) Megaports Initiative to work in cooperation with currently 
deployed PVT--based radiation portal monitors in those venues. DOE has 
purchased ASP units for use with MegaPorts from DNDO?s existing 
contract.

Conclusion
    DNDO is improving capabilities in detection and interdiction of 
illicit materials, intelligence fusion, data mining, forensics, and 
effective response to radiological or nuclear threats. It is the 
intention of DNDO to fully test and evaluate emerging technologies, in 
order to make procurement and acquisition decisions that will best 
address the detection requirements prescribed by the Global Nuclear 
Detection Architecture. We work with our interagency and intra-agency 
partners to ensure that deployment and operability of our systems 
enhance security and efficiency without unnecessarily impeding 
commerce.
    We plan to work with the GAO to foster better understanding of our 
development, acquisition, and testing approaches and will share results 
of our testing with Congress. This concludes my prepared statement. 
With the committee's permission, I request my formal statement be 
submitted for the record. Chairman Langevin, Ranking Member McCaul, and 
Members of the Subcommittee, I thank you for your attention and will be 
happy to answer any questions you may have.

    Mr. Langevin. Thank you, Director.
    Mr. Ahern?

 STATEMENT OF JAYSON AHERN, ASSISTANT COMMISSIONER, OFFICE OF 
FIELD OPERATIONS, CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Ahern. Thank you very much, Mr. Chairman. And thank you 
for the opportunity to discuss today with you the U.S. Customs 
and Border Protection's use of the technology that we partner 
with DNDO on and also the unprecedented mission, as we have, to 
meet our twin goals of facilitating legitimate travel and trade 
coming to this country, all the while securing the nation's 
borders.
    As you know, we use a multilayered strategy, and I believe 
you have had an opportunity to see some of that firsthand, 
particularly in Los Angeles-Long Beach. And I think it 
certainly is important for the folks at this hearing for me to 
just look at one of these layers and that is the use of our 
technology, principally, the Radiation Portal Monitor Program 
that we have been partnering with DNDO.
    I think it is certainly important to talk about the 
advancements that we have done in partnership with DNDO. When I 
take a look, I look back to when I first came to headquarters 
in 2002 and we had no radiation portal monitors in a post-9/11 
environment, and we had the very first one in Detroit. And I 
look at today, we have over 966 of the RPMs deployed at our 
nation's borders.
    Mr. Oxford talked about the ones we have in the northern 
and southern border environment. I also would want to mention 
that 89 percent of the containers coming into this country 
today in the maritime environment are actually being scanned 
through the radiation portal monitors before they are entered 
into the commerce of the United States.
    Just 12 months ago, during the height of the Dubai Port 
World issue, we were only at 37 percent, so there has been 
significant progress in that vector over the last 12 months, I 
am proud to report on that.
    Certainly, as you take a look at the transition and the 
relationship we have had, you know, in fiscal year 2006, the 
transition of the procurement went to DNDO, as they were 
established, and we have maintained a very strong relationship 
and collaborative role with them on developing the project 
execution plan with Director Oxford and his staff.
    As we take a look, we are going to continue to evolve 
through our radiation strategy, taking a look at the next 
generation systems and how they can be integrated to continue 
to streamline cross-border traffic that is so critical, 
particularly when you take a look at the land border 
environment. It is a very time-sensitive environment that we 
need to make sure that we continue to have good throughput and 
capacity through those ports of entry.
    And just by reference, I think it is important, in all the 
environments, we have put 151 million conveyances through the 
RPMs since we have stood them up over the last few years, and 
we have had to resolve over 800,000 alarms to radiation.
    As we take a look at evolving, as we go forward, and, 
certainly, if you recall your experience out in L.A.-Long 
Beach, that equates to about 400 to 500 alarms a day in one 
port alone in the place of Los Angeles-Long Beach. So we need 
to work forward with better protocols, continuing to look at 
next generation technology to identify what the ICE scope is so 
we can actually hone our efficiency down and make our twin 
goals as productive as we possibly can.
    Just briefly, I would like to talk about something that I 
think is very important for us within DHS. You know about the 
Container Security Initiative, currently 50 ports overseas. We 
have 82 percent of the container traffic where we have an 
opportunity to do some overseas scanning as one of our layers. 
We will be at 58 ports, covering 85 percent by the end of this 
year.
    I think the critical thing to talk about, though, is, with 
the passage of the Safe Port Act, Secretary Chertoff announced 
in December of this past year that we would be looking at 
deploying detection capabilities as part of an overall 
technological package overseas at three key ports that ship to 
the United States.
    I think that will give us an essential learning opportunity 
so that we can determine whether or not feasibility of 100 
percent scanning overseas is something that is realistic and 
doable, and we will learn a lot from these tests that we will 
be starting with in the next couple of months, and we will be 
happy to report on those in the future, as we go forward.
    I think for the sake of time I will conclude at this point 
in time and look forward to any questions you might have for 
us.
    [The statement of Mr. Ahern follows:]

                 Prepared Statement of Jayson P. Ahern

                       Wednesday, March 21, 2007

INTRODUCTION
    Good morning Mr. Chairman and distinguished Members of the 
Subcommittee. Thank you for this opportunity to discuss with you today 
U.S. Customs and Border Protection's (CBP) efforts to both strengthen 
the security of cargo entering our borders and facilitate the flow of 
legitimate trade and travel.
    Let me begin by expressing my gratitude to the Committee for the 
strong support you provided for important initiatives implemented by 
CBP last year. Your support has enabled CBP to make significant 
progress in securing our borders and protecting our nation against the 
terrorist threat. CBP looks forward to working with you to build on 
these successes.
    CBP has made great strides toward securing America's borders, 
facilitating legitimate trade and travel, and ensuring the vitality of 
our economy. As America's frontline border agency, our priority mission 
is to protect the American public against terrorists and the 
instruments of terror while at the same time enforcing the laws of the 
United States and fostering the Nation's economic security through 
lawful travel and trade. Today, trained CBP Officers, technology, 
automation, electronic information, and partnerships with the trade and 
foreign governments are concepts that underpin CBP's cargo security and 
anti-terrorism initiatives. These concepts extend our zone of security 
outward and reinforce the components of our layered defense strategy.
    As we work toward securing our ports and borders, we must also 
continue to perform our traditional missions, which include stemming 
the flow of illegal drugs and other contraband, protecting our 
agricultural and economic interests from harmful pests and diseases, 
protecting American businesses from theft of their intellectual 
property, regulating and facilitating international trade, collecting 
import duties, and enforcing United States trade laws. In FY 2006, CBP 
processed more than 422.8 million pedestrians and passengers, 131 
million conveyances, 28.8 million trade entries, scanned and physically 
examined 5.6 million sea, rail, and truck containers, intercepted 1.1 
million illegal aliens between our ports of entry intercepted more than 
2.7 million prohibited plant and animal products, and seized more than 
2.2 million pounds of narcotics.

CBP OVERVIEW
    I am pleased to appear before the Subcommittee today to highlight 
key accomplishments related to container security in particular with 
regard to new and emerging technology. CBP has made tremendous progress 
in ensuring that supply chains bringing goods into the United States 
from around the world are more secure against potential exploitation by 
terrorist groups as a means to deliver weapons of mass effect. The use 
of cutting edge technology has greatly increased the ability of front 
line CBP Officers to successfully detect and interdict illicit 
importations of nuclear and radiological materials. CBP uses a multi-
layered approach to ensure the integrity of the supply chain from the 
point of stuffing through arrival at a U.S. port of entry. This multi-
layered approach includes:
        <bullet> Advanced Information under the 24-Hour Rule and Trade 
        Act of 2002
        <bullet> Screening the information through the Automated 
        Targeting System
        <bullet> The Customs Trade Partnership Against Terrorism (C-
        TPAT)
        <bullet> The Container Security Initiative (CSI)
        <bullet> Use of Non-Intrusive Inspection Technology and 
        Mandatory Exams for All High Risk Shipments
    I will discuss each one of these layers in greater detail with 
particular focus on our radiation & nuclear detection capabilities.

Advance Information
    CBP requires advanced electronic cargo information as mandated in 
the Trade Act of 2002 (including the 24-hour rule for maritime cargo). 
Advanced cargo information on all inbound shipments for all modes of 
transportation is effectively evaluated using the Automated Targeting 
System (ATS) before arrival in the United States.
    ATS provides decision support functionality for CBP officers 
working in Advanced Targeting Units (ATUs) at our ports of entry and 
CSI foreign ports. The system provides uniform review of cargo 
shipments for identification of the highest threat shipments, and 
presents data in a comprehensive, flexible format to address specific 
intelligence threats and trends. ATS uses a rules-based program to 
highlight potential risk, patterns, and targets. Through rules, the ATS 
alerts the user to data that meets or exceeds certain predefined 
criteria. National targeting rule sets have been implemented in ATS to 
provide threshold targeting for national security risks for all modes: 
sea, truck, rail, and air.
    Working with the Departmental Advisory Committee on Commercial 
Operations (COAC), CBP has proposed a new Security Filing in an effort 
to obtain additional advanced cargo information and enhance our ability 
to perform risk-based targeting prior to cargo being laden on a vessel 
overseas. The CBP proposal, better known as ``10 plus 2'' covers the 
following key areas:
        1. Ten unique data elements from importers not currently 
        provided to CBP 24 hours prior to foreign loading of cargo,
        2. Two additional data elements provided by the carriers 
        including the Vessel Stow Plan which is currently utilized by 
        the vessel industry to load and discharge containers and 
        Container Status Messaging which is currently utilized by the 
        vessel industry to track the location of containers and provide 
        status notifications to shippers, consignees and other related 
        parties.
    CBP is currently developing a Notice of Proposed Rulemaking (NPRM), 
which will be published in the Federal Register along with a request 
for comments. Obtaining additional information earlier in the process 
will increase the transparency of the global supply chain enabling the 
refinement of CBP's targeting processes and will provide additional 
information to make a more fully informed decision with respect to the 
risk of individual shipments.

Customs Trade Partnership Against Terrorism (C-TPAT)
    C-TPAT is an integral part of the CBP multi-layered strategy, in 
that CBP works in partnership with the trade community to better secure 
goods moving through the international supply chain. C-TPAT has enabled 
CBP to leverage supply chain security throughout international 
locations where CBP has no regulatory reach. In 2007, CBP will continue 
to expand and strengthen the C-TPAT program and ensure that certified 
member companies are fulfilling their commitment to the program by 
securing their goods moving across the international supply chain to 
the United States. To carry-out this critical tenet of C-TPAT teams of 
Supply Chain Security Specialists (SCSS) will conduct validations and 
begin revalidations of C-TPAT members' supply chains to ensure security 
protocols are reliable, accurate, and effective.
    As C-TPAT has evolved, we have steadily added to the rigor of the 
program. CBP has strengthened the C-TPAT program by clearly defining 
the minimum-security requirements for all categories of participants 
wishing to participate in the program and thereby gain trade 
facilitation benefits. As of March 2007, there are 6,628 companies 
certified into the C-TPAT program and 3,969 have been validated. CBP's 
goal is to validate all partners within one year of certification, 
revalidate all companies not less than once every three years and 
revalidate all U.S./Mexico highway carriers on an annual basis, based 
on the risk associated with the Southern Border Highway Carrier sector 
of C-TPAT. In addition, a Third Party Validation Pilot program will 
begin shortly.

Container Security Initiative (CSI)
    To meet our priority mission of preventing terrorists and terrorist 
weapons from entering the United States, CBP has also partnered with 
other countries through our Container Security Initiative (CSI). Almost 
32,000 seagoing containers arrive and are off loaded at United States 
seaports each day. In fiscal year 2006, that equated to 11.6 million 
cargo containers annually. Because of the sheer volume of sea container 
traffic and the opportunities it presents for terrorists, containerized 
shipping is uniquely vulnerable to terrorist exploitation. Under CSI, 
which is the first program of its kind, we are partnering with foreign 
governments to identify and inspect high-risk cargo containers at 
foreign ports before they are shipped to our seaports and pose a threat 
to the United States and to global trade.
    The goal is for CBP's overseas CSI teams to conduct 100 percent 
manifest review before containers are loaded on vessels destined for 
the United States. However, in those locations where the tremendous 
volume of bills does not allow for the overseas CSI team to perform 100 
percent review, CSI targeters at the National Targeting Center provide 
additional support to ensure that 100 percent review is accomplished. 
Utilizing the overseas CSI team and the CSI targeters at our National 
Targeting Center, CBP is able to achieve 100% manifest review for the 
CSI program.
    Today, CSI is operational in 50 ports covering 82 percent of the 
maritime containerized cargo shipped to the United States. CBP is 
working towards strategically locating CSI in additional locations 
focusing on areas of the world where terrorists have a presence. CBP 
projects that by the end of 2007, CSI will be operational in 58 foreign 
seaports, covering over 85 percent of maritime commercial cargo 
destined for the United States.

Non-Intrusive Inspection (NII) and Radiation Detection Technology
    The use of detection technologies represents the final piece of 
CBP's layered strategy. Technologies deployed to our nation's sea, air, 
and land border ports of entry include large-scale X-ray and gamma-
imaging systems as well as a variety of portable and hand-held 
technologies to include radiation detection technology. NII 
technologies are viewed as force multipliers that enable us to scan or 
examine a larger portion of commercial traffic while facilitating the 
flow of legitimate trade, cargo, and passengers. CBP has deployed183 
large-scale NII systems within our Nation's Ports of Entry. The future 
direction of the CBP's large-scale NII strategy will focus on acquiring 
and deploying high-energy imaging systems with enhanced performance 
features, including greater penetration capabilities.
    The Office of Field Operations and the Laboratory & Scientific 
Services Division Interdiction & Technology Branch have identified 
high-energy systems that have demonstrated the appropriate performance 
characteristics (mobility, greater penetration capability, improved 
image quality) that will enhance CBP's ability to non-intrusively 
examine cargo and conveyances for weapons of mass effect and other 
contraband.
    To clearly illustrate this path forward, in 2006, CBP acquired 15 
new NII technology systems for deployment; 11 of the 15 systems are 
high-energy units.
    As of March 14, 2007, 966 Radiation Portal Monitors (RPMs) have 
been deployed nationwide with the ultimate goal of scanning 100 percent 
of containerized cargo and conveyances for radioactive materials. CBP 
deployed the first Radiation Portal Monitor (RPM) on the U.S. side of 
the Ambassador Bridge, in Detroit on October 17, 2002. Current 
generation RPMs are constructed of Polyvinyl-toluene a form of plastic 
and are commonly referred to as PVT portals.
    These RPMs permit CBP to scan for nuclear or radiological materials 
100% of all arriving international mail and/or express courier parcels; 
91% of all truck cargo and 81% of all personally owned vehicles 
arriving from Canada; 96% of all truck cargo and 91% of all personally 
owned vehicles arriving from Mexico; and 89% of all containerized sea-
borne cargo. To date, we have scanned approximately 151 million 
conveyances with RPMs, and have resolved over 800,000 alarms. In 
addition, CBP has deployed over 800 Radiation Isotope Identifier 
Devices (RIID) and over 15,000 Personal Radiation Detectors (PRD). 
Currently, CBP scans 91% of all containerized cargo arriving in the 
U.S. by land and sea using RPMs.
    These systems, although very sensitive, cannot distinguish between 
actual threats and radiation sources that are not security threats. 
Examples include medical isotopes and some naturally occurring 
radioactive materials. Hence the need for an improved detection system 
was identified.
    The Domestic Nuclear Detection Office (DNDO) was chartered to 
develop and acquire new technologies that will improve the Nation's 
detection capabilities, in addition to procuring the current generation 
systems that are being deployed to our ports of entry. The Advanced 
Spectroscopic Portal (ASP) Program under the DNDO was implemented to 
address that challenge by providing a more robust radiological 
detection regimen. The ASP program is presently in the test and 
evaluation stage. Upon successful completion of the test and evaluation 
process, a recommendation to Secretary Chertoff will be made by DNDO to 
continue development of the ASP and procure the next-generation of 
passive radiation detection systems for deployment at the nation's 
borders. ASP systems will be developed for fixed and mobile 
applications in order to scan cargo entering the United States across 
land crossings, seaports, airports, and ultimately provide solutions 
for the challenges that we currently face at our shared trans-border 
rail crossings with Mexico and Canada.
    These technologies, used in combination with our layered 
enforcement strategy, provide CBP with a significant capability to 
detect nuclear and radiological materials that may pose a security 
threat.

Secure Freight Initiative (SFI)
    CBP continues to enhance and improve upon these layers. One such 
enhancement is the recent announcement of the Secure Freight 
Initiative. The Secure Freight Initiative is an unprecedented effort to 
build upon existing port security measures by enhancing the United 
States government's ability to scan containers for nuclear and 
radiological materials in seaports worldwide and to better assess the 
risk of inbound containers. On December 7, 2006, the Department of 
Homeland Security (DHS) and the Department of Energy (DOE), in 
cooperation with the maritime industry and foreign government partners, 
announced Phase One of the Secure Freight Initiative (SFI). The lessons 
learned and experience gained from Phase One of the Secure Freight 
Initiative represent critical steps in the process of determining 
whether the concept of 100% scanning is technologically and 
economically feasible and the degree to which it increases the security 
of the international supply chain. Phase One will provide lessons and 
evidence on how this new, integrated suite of radiation detection and 
radiography technology can meld smoothly into the logistics, 
operations, and flow of commerce at each different port.
    The initial phase of the Secure Freight Initiative involves the 
deployment of a combination of existing technology and proven nuclear 
detection devices to six foreign ports: Port Qasim in Pakistan; Port 
Cortes in Honduras; Southampton in the United Kingdom; Port Salalah in 
Oman; Port of Singapore; and the Gamman Terminal at Port Busan in 
Korea.
    Secure Freight will provide carriers of maritime containerized 
cargo with greater confidence in the security of the shipment they are 
transporting, and it will increase the likelihood for shippers and 
terminal operators that the flow of commerce will be both uninterrupted 
and secure.
    This initiative is the culmination of our work with other 
Government agencies, foreign governments, the trade community, and 
vendors of leading edge technology. The scanning project is a first 
step toward realizing a greater vision of Secure Freight, a fully 
integrated global network for risk assessment.

Role of Technology
    I would like to take just a moment to discuss the role of 
technology for supply chain security. Security technology is 
continuously evolving, not only in terms of capability but also in 
terms of compatibility, standardization, and integration with 
information systems. It is important to note that there is no single 
technology solution to improving supply chain security. As technology 
matures, it must be evaluated and adjustments to operational plans must 
be made. Priority should be given to effective security solutions that 
complement and improve the business processes already in place, and 
which build a foundation for 21st century global trade. A more secure 
supply chain also can be a more efficient supply chain.
    As part of this, CBP in concert with the Science and Technology 
Directorate of DHS is in the process of generating technical and 
administrative requirements for Container Security Devices (CSD) based 
upon the operational needs of CBP and the trade community. These 
requirements should be published in mid-2007. It is important to note 
that the deployment of CSD technology only improves supply chain 
security as part of a broader supply chain security process that 
ensures the integrity of the shipment before the CSD is activated. 
Requiring such a device independent of a process to ensure that the 
container was secure before its application would have an adverse 
effect on security by creating the false impression that a dangerous 
shipment was secure.
    With the components of our strategy firmly in place, and now 
enacted into law, we have a clear mandate to continue and evolve our 
programs. CBP, in concert with our sister agencies, is committed to 
implementing mandates outlined in the DHS Appropriations Act of 2007 
and the SAFE Port Act of 2006. I am pleased to report that we are 
making great progress in meeting these requirements.

CONCLUSION
    Mr. Chairman, Members of the Committee, today I have outlined CBP's 
commitment to investing its efforts in the areas of new and emerging 
detection technology along with some of the very positive steps we have 
taken towards enhancing cargo security. I believe CBP has demonstrated 
and will continue to demonstrate its leadership and commitment to 
protecting America against terrorists and the instruments of terror. As 
we move forward to face the many challenges ahead, we look forward to 
working in partnership with the 110th Congress to build on our many 
accomplishments and focus on getting the desired results. With the 
continued support of the President, DHS, and the Congress, CBP will 
succeed in meeting the challenges posed by the ongoing terrorist 
threat.
    Thank you again for this opportunity to testify. I will be happy to 
answer any questions you may have.

    Mr. Langevin. Gentlemen, thank you for your testimony.
    Before I begin my questions, I just wanted to mention that, 
as you, Mr. Ahern, brought up my trip out to L.A.-Long Beach, 
the Port of Los Angeles, it was a great visit, great site visit 
and gave me an opportunity to see up close and personal how the 
process works and how the equipment is working, and I was very 
impressed with what I saw out there.
    I also had the opportunity to speak with people on the 
ground and ask them what the relationship was like between DNDO 
and CBP and how this is an important one, and the relationship 
got high marks, and it seems like it is working well.
    So that brings me to my first question. Obviously, you feel 
strongly that for the nuclear detection mission to be 
successful, we have to pay attention to both the personnel and 
the equipment, and this, in turn, requires a great deal of 
cooperation between DNDO and CBP.
    So if I could just ask, in terms of process, can you 
describe to the committee the process that was used to develop 
the deployment schedule for radiation portal monitors and was 
the strategy developed jointly with sign-off from both 
agencies.
    Mr. Oxford. Thank you, Mr. Chairman.
    This has been a joint venture since DNDO was established to 
actually have a deployment and logistics team within my Systems 
Development Acquisition Office charged uniquely with the 
requirement to work with CBP to figure out the installation 
priorities and then go about the business of working against 
that priority list.
    So they have been working feverishly over the last year to 
get this joint program plan in place, the joint development 
strategy, that not only talks about what sites we will go to, 
at what times, it also talks about the gradual integration of 
new technologies into that strategy so we know where ASP will 
go once it is certified by the secretary, into what secondary 
site.
    And those are sites of choice by CBP. It is not something 
that DNDO specifies. It is where CBP says they would most like 
to enter them into preliminary, secondary screening and 
ultimately to gradually build up that strategy over time. So 
that is a joint document that Mr. Ahern and I have agreed to 
and is our strategy.
    It is a dynamic document. As I mentioned, port 
reconfigurations take place. We have to go back and look at 
some of these and decide where to slide those into the priority 
list. It is dynamic, but it is a proactive strategy to get us 
there with the resources we have got available.
    Mr. Ahern. If I just might add briefly to that. Certainly, 
I think we welcome DNDO once DHS was stood up and when they 
evolved as an organization for us to partner with on this 
issue. Because when we began this, it was before DHS was even 
created. So we very much welcome the partner that would 
actually be able to help us with some of the technological 
advice and help us with that aspect of our deployment.
    What we bring to the process is knowledge of how our ports 
work, what we need for support of our frontline officers, the 
type of technological package we can inject in our operational 
environment, all the while being considerate that throughput 
and capacity is so delicate to cross-border travel and trade in 
the environment. So it is a great partnership, because we bring 
different skill sets, but we have the same goal as we go 
forward.
    Mr. Langevin. You are confident that, whether it is based 
on intelligence or concern that is raised by CBP, that if you 
needed to, you said that this was dynamic, that if you needed 
to change that deployment schedule quickly, that that could 
happen, that the intelligence would get to the right people at 
the right time and that we could get equipment in place as soon 
as possible?
    Mr. Oxford. Clearly, the plan is dynamic. Now, depending on 
whether we had started work at a site, it is not always 
immediate that we get installations in place. Now, we could 
react to a specific intelligence queue, maybe, with more mobile 
systems as opposed to some of the fixed installations, but the 
dynamics of the plan are that if CBP decided they needed to 
place emphasis somewhere, we would shift the priorities with 
the deployment people to do that, absolutely.
    And I would also point out that I have been involved in a 
lot of programs in the Department of Defense and elsewhere that 
the developer wasn't always well-coupled with the user, and 
that usually does not lead to a good conclusion. So we are 
happy for all the help we get from CBP in terms of assigning 
the operational prerogatives and priorities to us. We think 
that is the way business ought to be done.
    Mr. Ahern. And I would agree that, certainly, if we needed 
to be flexible and respond to an emerging challenge that we had 
not been aware of earlier in the process, we could quickly 
adapt to it.
    When you are doing the physical laydown or permanent 
installations, it is a little more complex, takes a little more 
time, but that is the beauty of having--we now have 60 mobile 
RPMs out there, and we have seen some of those mounted on the 
back of the large trucks that can do operations. If we see it 
in some of the small ports or locations where we don't have the 
capacity, we can move that to there quickly. Also would be the 
compliment of some of the handheld devices that gives us the 
ability to get there very quickly to address an emerging 
threat.
    When we first considered the laydown, we obviously went to 
the northern border first, and that was our first focus because 
of the potential threat coming from Canada and the United 
States and also the lack of advanced information.
    Because I spoke of the multilayers that we have for our 
defense strategy at our nation's borders, it begins with 
getting electronic information in advance. We did not have that 
coming from Canada, whereas in a maritime environment, we were 
getting it 24 hours prior to lading, we were starting to put 
CSI teams overseas in foreign locations, giving us some 
capacity to do screening for security prior to lading. We 
didn't have that opportunity with Canada.
    So based on volume and based on that level of threat and 
knowledge, we did our deployment on that northern border first, 
but now we are completing the border locations, both borders, 
91 percent northern border, 96 percent southern border seaport.
    I mentioned that statistic and we want to finish those off 
and then be able to address emerging threats and other 
environments that are also critical to the security of the 
country.
    Mr. Langevin. Very good. Very good.
    Let me turn to costs for a second.
    Director Oxford, I have a question related to one of the 
issues raised at last week's hearing regarding the cost-benefit 
analysis conducted by DNDO. The cost-benefit analysis 
overestimated the cost of the PVT monitors to be $131,000, 
which is 238 percent increase in what the actual cost is, which 
I understand is $55,000.
    Is this still the expected cost? And if so, can you tell us 
why such a large cost increase is justified? Is there a 
concurrent increase of the performance of the RPMs? And given 
that DNDO has already purchased and deployed roughly 1,000 of 
these units and you plan to get 1,500, 2,000 more, shouldn't we 
be able to get a better price?
    Mr. Oxford. Mr. Chairman, I think one of the things I tried 
to correct last week was the $55,000 price quote was for a 
pedestrian portal, it is not a cargo portal. So an apples to 
apples between a deployed system for what we are dealing with 
in terms of cargo screening would be the $78,000 price that has 
been on the GSA schedule for some time. That contract has 
expired and is being renegotiated. We expect that price to be 
close.
    Part of our $131,000 was to look at making some of those 
systems actually more capable and to see if we could get 
comparable both gamma capability as well as neutron capability. 
So it is about a two, to three, to one ratio between that and 
the ASP system.
    When we did the CBA, one of the things we didn't talk about 
a lot last week was we looked at five different configurations 
for deployment strategies that ultimately took us away from 
what had been at one time an all-ASP deployment strategy where 
we would replace everything.
    We came up with a hybrid approach where based on the volume 
of traffic at every port of entry or every site crossing, we 
will figure out the right combination of current PVT systems 
versus ASP, and in many cases, we will retain the PVT systems 
in primary screening with ASP as a secondary to work the 
discrimination and the operator workload. So we think we have 
been able to take what at one time was a $3.5 billion 
deployment plan down to about $1.4 billion across the entire 
strategy.
    But we also have some issues associated with making sure 
that PVTs operate as well as they can. That is why we are 
testing them also at the Nevada test site until we fully 
understand their system's performance, so as we go forward with 
CBP, they understand how all of these systems work and what 
combinations fit best at every one of these ports.
    Mr. Langevin. Just for my understanding, the original 
$131,000 estimate was for what type of equipment? And you said 
the stationary model is the $76,000 per unit cost? And what is 
$55,000, what does that correspond to?
    Mr. Oxford. The $55,000 is for a pedestrian, if you just 
had people walking through, just like you would see at an 
airport. There is a design that is on the GSA schedule where 
you can buy those if you want to screen for people.
    The cargo version, where you are actually looking at 
containerized cargo, was the $78,000 that I mentioned. What we 
had done is we looked at adding capability to that, if we 
wanted to deploy that, with better neutron capability. We were 
adding helium-3 tubes to that.
    So the best comparison, if you really want to do apples to 
apples, would be the $78,000 to the $377,000 price as opposed 
to $55,000 to $377,000. We were trying to add additional 
capability to the PVT system when we went back and did the CBA. 
That probably confused some people.
    Mr. Langevin. Okay. Thank you for setting the record 
straight on that one.
    Mr. Ahern, I have a question regarding the concept of 
operations used by your office to detect radiation, if you 
could just explain this a little further. The current procedure 
states that if a radiation alarm sounds in primary inspection, 
either by an RPM or by a radiation pager, the vehicle is sent 
to a secondary inspection where the vehicle is scanned with a 
radiation isotope identifier device, which usually a handheld 
device, as I understand.
    These results are then evaluated by an officer who also has 
the option of contacting a technical expert with laboratory and 
scientific services. I know that between land and seaports, to 
date, roughly 360,000 alarms have been sounded and cleared, and 
I have been told, however that sometimes the RIID does not pick 
up the signal.
    So what happens if that is the case? How can you resolve an 
alarm if the secondary device doesn't detect anything?
    Mr. Ahern. Thank you for that question. I want to clarify a 
couple of points.
    First off, the 360,000 alarms that have actually sounded, 
that number now has risen to close to 800,000. That is an older 
number. So we are now seeing over 150 million transactions that 
we put through the radiation portal monitors with about 800,000 
that have been sent for further follow up because of an isotope 
that has actually alarmed the system.
    Land border environments are basically the same as a 
seaport environment. They still will go from a primary portal, 
they will go through a secondary portal to go ahead and see if 
it alarms again. They will begin to try to locate it and 
isolate what the alarm is. They will use the handheld 
technology at that point in time to see if they can isolate it.
    There is the capability then, once they identify the 
isotope, if they can identify it as being a nuisance alarm, we 
have the ability to go ahead and resolve it on site. We do have 
the reachback capability to our National Targeting Center where 
we can send the radiation spectra to the Laboratory and 
Scientific Service personnel so they can provide additional 
insight into what the isotope is that could be alarming in 
those particular circumstances.
    Mr. Langevin. Very good. Thank you for clarifying that.
    Last question that I had for Director Oxford, I would like 
to focus a bit on closing many of the gaps that are still on 
the northern border. I know you touched on some of it, but it 
concerns me that some of the less populated areas, particularly 
along the northern border, still don't have adequate levels of 
radiation detection technology deployed.
    Director, would you please describe where we are in terms 
of deploying our radiation detection equipment along the less 
populated areas of the northern border and outline some of the 
problems your department is facing there?
    Would you also please give us your outlook as to when we 
will have full coverage of the more rural areas?
    Mr. Oxford. Mr. Chairman, I will let Mr. Ahern talk a 
little bit about the operating environment at some of those 
locations. As the director for field operations, he has a 
better feel on the ground for each of those. But in many cases, 
these are small and secure locations, but they take the same 
level of intensity for the installation that our larger-volume 
locations require.
    That is why, based on the resources that are currently in 
our budget, it is going to take until 2013, and we will be 
dealing now with, in some cases, locations that have hundreds 
of percent of the overall cargo coming into this country.
    So we are tracking places where there is 0.04 percent cargo 
coming across one location, but we are treating them with the 
same importance. It just takes a long time to go through these 
because of the numbers of locations now. We have hit all the 
high7-volume locations, and we are down to a lot of locations 
that require the same kind of intense installation process that 
we have been dealing with.
    So it is a laborious process and is not an equipment issue 
as much as it is the arms and legs for people to get there, and 
that is where the resources are limited.
    Mr. Langevin. It is a function of resources in terms of 
dollars or is it a function of resources in terms of training 
personnel to operate the equipment?
    Mr. Oxford. It is actually the funding.
    Mr. Langevin. It is the funding.
    Mr. Oxford. Absolutely. We have looked at the supplemental, 
and, again, we are not overreacting to the prospects, but we 
are posturing in case the supplemental is successful. And right 
now, our estimate is we would take the 2013 deployment date and 
move it up to 2010 if that were to actually be made available.
    Mr. Langevin. Well, as you know, it has been my intention 
to try to push that issue as aggressively as possible, as you 
would agree, and try to get this program fully funded and 
deployed as quickly as possible. And we will continue to work 
together on that goal.
    Mr. Oxford. We appreciate your support. Again, what we are 
doing right now is we are looking at some contracts that we 
would award very quickly to get the extra deployment capacity, 
and then the equipment would be based, again, on ASP 
certification with the secretary. We would have to, at that 
time, decide whether to go with current generation systems or 
next generation systems based on his certification, hopefully 
in June, but we would be able to move out and, again, slide the 
deployment date from 2013 to 2010.
    Mr. Langevin. Thank you. Thank you for that.
    I have concluded my questions, and I would like to welcome 
a new member, Mr. McCarthy, to the committee and ask if the 
gentleman from California would like to inquire.
    Mr. McCarthy. No.
    I just want to thank you, Mr. Chairman, for letting me be 
part of the committee. I know I am a little late, I apologize, 
and I will just pay attention a little more.
    Mr. Langevin. That is all right. You are the first one on 
the minority side to show up, so this is a good thing. We are 
glad you are here.
    Well, that concludes my questions. I am sure Mr. McCaul 
will have both a statement and some questions to submit for the 
record.
    With no further business, I will just end by thanking our 
two witnesses for their valuable testimony.
    The members of the subcommittee may have additional 
questions, and we will forward that to you. All members will 
have an opportunity to inquire further.
    But I want to thank you both for your testimony and for 
your service to the country. It is a difficult job, I know. The 
consequences of failure are catastrophic, which we cannot allow 
to happen, and you are working aggressively to do all you can 
to protect the country and our citizens, and we are grateful 
for your service.
    Thank you.
    And this committee stands adjourned.
    [Whereupon, at 3:40 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


                   Additional Questions and Responses

                   Responses Submitted by Gene Aliose

        Questions from the Honorable James R. Langevin, Chairman

    Question 1.: Do you agree that highly enriched uranium (HEU) is one 
of the most challenging threats to detect?
    GAO Response: Yes, HEU is one of the most challenging threats to 
detect, primarily because it emits a lower level of radioactivity than 
other radioactive sources. Detection can be made even more difficult if 
the HEU is shielded within a high-density material, such as lead.

    Question 2.: If an advanced spectroscopic portal (ASP) system can 
accurately identify HEU, does this mean that the ASP system will also 
perform equally well in identifying a different radioactive material 
that emits stronger radioactive signals.
    GAO Response: Even if an ASP system can identify HEU, it will not 
necessarily perform equally well in identifying other radioactive 
materials, even if they emit stronger radioactive signals than HEU. 
Different radioactive materials emit gamma rays with unique energies 
that creates a radiological signature that is unique to that specific 
material. ASP systems contain software designed to identify material 
such as HEU by recognizing the material's unique radiological 
signature. Thus, an ASP can identify a material only if its 
radiological signature is programmed into the ASP's software. For 
example, if an ASP's software has not been programmed to include the 
unique radiological signature of cesium, a common radiological 
material, then the ASP will not be able to correctly identify cesium.

                  Question from the Honorable Al Green

    Question 3: In GAO's view, to what degree did the cost-benefit 
analysis of advanced spectroscopic portals conducted by the Domestic 
Nuclear Detection Office (DNDO) meet DHS's guidelines on how to perform 
a cost-benefit analysis?
    GAO Response: DNDO's cost-benefit analysis of ASPs fully met only 
one of eight major criteria we identified within DHS' guidelines on how 
to conduct a cost-benefit analysis and is, therefore, incomplete. In 
our view, DNDO partially met three of the additional criteria and did 
not meet the other four criteria at all. During the March 14, 2007 
testimony, the Director of DNDO asserted that DNDO was not aware of any 
specifics concerning the degree to which the methodology DNDO used in 
its cost-benefit analysis met DHS' guidelines for conducting cost 
benefit analyses. This is not the case. On June 27, 2006, we briefed 
DNDO officials, including the Assistant Director, Systems Development 
and Acquisition Directorate, and officials from Customs and Border 
Protection (CBP), on the information provided in Table 1, which 
summarizes the results of our analysis.

    Table 1: The Extent to Which DNDO's Cost-Benefit Analysis Met 
Criteria Established in DHS Guidelines


------------------------------------------------------------------------
                                                 Extent to which DNDO's
                   Criterion                      Cost-Benefit Analysis
                                                    Met DHS Criteria
------------------------------------------------------------------------
1. The analysis should clearly state why the                  Fully met
 Department believes a project or investment
 is necessary.
------------------------------------------------------------------------
2. The analysis should include at least two               Partially met
 alternatives to the current system.
------------------------------------------------------------------------
3. The analysis should include the rationale              Partially met
 for including each alternative, including the
 specific pros and cons for each.
------------------------------------------------------------------------
4. The analysis' cost estimate for each                         Not met
 alternative should be reasonable and
 complete.
------------------------------------------------------------------------
5. The analysis' benefit estimates for each                     Not met
 alternative should be reasonable.
------------------------------------------------------------------------
6. The analysis should apply a proper discount                  Not met
 rate to the costs and benefits and compare
 and evaluate alternatives on the basis of
 their net present value.
------------------------------------------------------------------------
7. The analysis should include an assessment             Partially met.
 of the uncertainty of each alternative's
 costs and benefits.
------------------------------------------------------------------------
8. The analysis should be compared with                        Not met.
 similar analyses and any differences should
 be discussed and explained.
------------------------------------------------------------------------


Criterion 1: The analysis should clearly state why the Department 
believes a project or investment is necessary. (Fully Met)
    DNDO clearly articulated in its cost-benefit analysis that it 
believes the polyvinyl toluene--or ``plastic scintillator'' portal 
monitors (PVT)--currently deployed at the nation's ports-of-entry are 
inadequate and should be replaced with new technology. DNDO asserts 
that because PVTs detect the presence of radiation but do not identify 
its specific radiological isotope, they produce an unacceptable number 
of alarms. This occurs because PVTs alarm when the radioactive material 
detected inside a container is a benign material such as roofing tiles 
or fertilizer, as well as when it is a potentially dangerous material 
such as cesium or special nuclear materials (SNM). DNDO also clearly 
states that it believes secondary inspections--the inspections CBP 
performs after the material in a container triggers an alarm--slow the 
flow of commerce at seaports to an unacceptable degree. By explaining 
what it believes to be the problem with the current system of radiation 
detection at U.S. ports-of-entry, DNDO has fully met its requirement 
for this criterion.
    However, it is important to note that, although DNDO fully 
explained what it asserts to be the problem with the current system of 
radiation detection (i.e., the use of PVTs slows the flow of commerce), 
it did not conduct an evaluation to determine the extent to which 
DNDO's alternative (the use of ASPs) will help to prevent nuclear 
smuggling--the primary purpose of radiation detection equipment. The 
only benefit from ASPs that DNDO cites in its analysis is improving the 
flow of commerce.

Criterion 2: The analysis included at least two alternatives to the 
current system.T1 (Partially Met)
        <bullet> DNDO included four alternatives to the current system 
        of using PVTs in its cost-benefit analysis. These alternatives 
        included an all-PVT option, two combination PVT-ASP options, as 
        well as an all-ASP option. However, in our view, DNDO's 
        analysis of each alternative was incomplete. Critical problems 
        in DNDO's analysis include the following:
        <bullet> DNDO based cost projections on 5 years because the 
        contract was for that length of time rather than using a more 
        reasonable life cycle of 10-years for an ASP or PVT.
        <bullet> DNDO omitted system development costs in the total 
        costs of ASPs.
        <bullet> DNDO omitted costs that will be necessary to heat and 
        cool ASPs. (Unlike PVTs, ASPs require heating and cooling 
        systems to protect their hardware from extreme temperatures.) 
        According to officials at CBP, depending on where an ASP is 
        located, these heating and cooling costs could be substantial.
        <bullet> DNDO omitted costs related to the specific ports in 
        which an ASP may be deployed. These costs may vary 
        significantly from port to port and are not necessarily the 
        same for both ASPs and PVTs.
        <bullet> Although ASPs differ in their ability to detect and 
        identify radiological and nuclear materials, DNDO did not 
        develop individual cost estimates for several ASPs; instead, it 
        developed an estimate for only one. ASPs use crystals to detect 
        and identify radiological materials, and the number and type of 
        crystals they contain determines their detection and 
        identification abilities. ASPs with better detection and 
        identification abilities can cost several times more than those 
        that are less sensitive. In contrast, the independent 
        government cost estimate (IGCE) that DNDO obtained to support 
        its cost-benefit analysis included separate cost estimates for 
        three ASPs that differed in their ability to identify 
        radiological and nuclear sources. In our view, DNDO should have 
        developed cost estimates for ASPs of differing abilities in 
        order to create a more comprehensive assessment.

Criterion 3: The analysis should include the rationale for including 
each alternative, including the specific pros and cons for each. 
(Partially Met)
    DNDO included a general rationale for each alternative. However, it 
did not include specific pros and cons for each alternative, nor did it 
explicitly explain the factors it believed were important to analyze 
for each alternative. As a result, DNDO's rationale for favoring one 
alternative over another is not immediately transparent. For instance, 
DNDO's preferred option is to continue the use of PVTs for primary 
inspections (the initial screening of cargo as it departs ports of 
entry) and to use ASPs for secondary inspections (follow-up screenings 
for cargo that alarms during the primary screening). In the analysis, 
DNDO asserted that this alternative provides better performance and 
largest net benefits among the four alternatives. However, DNDO never 
explained what it meant by ``better performance'' relative to the other 
alternatives. DNDO also did not identify the potential disadvantages of 
using ASPs for secondary inspections, such as the possibility that an 
ASP could mistake a dangerous radiological material for something more 
benign--or detect nothing at all. In either case, dangerous nuclear or 
radiological material might be smuggled into the country.

Criterion 4: The analysis' cost estimate for each alternative should be 
reasonable and complete. (Not Met)
    DHS's guidance states that a reasonable estimate should develop the 
baseline costs associated with the current situation (i.e., using PVTs 
to screen cargo). This baseline should then be used to assess the costs 
for each of the alternatives. However, DNDO did not examine the costs 
of the current situation, rejecting it as ``unacceptable'' because of 
the number of false alarms that DNDO contends PVTs currently generate 
at U.S. points-of-entry. DNDO made this assertion without providing any 
supporting quantitative analysis. As a result, DNDO's analysis 
presented no way to compare each alternative to the current situation 
of using PVTs.
    DNDO's cost estimates were also incomplete, omitting important 
items such as development costs, installation costs, operation costs 
that would be paid by CBP or seaport operators, and the costs 
associated with an ASP's ``false negatives''--instances in which the 
ASP incorrectly identifies a radiological or nuclear material as 
benign. DNDO contends that estimating the potential cost of a false 
negative is impossible because of the difficulty in estimating (1) the 
probability that a dirty bomb or nuclear bomb could be detonated in the 
United States and (2) the economic damage resulting from a dirty bomb 
or nuclear bomb. However, it is important to note that economists, 
statisticians, and scientists make these types of estimates in a 
variety of areas, such as estimating the value of risks associated with 
nuclear power plants.

Criterion 5: The analysis' benefit estimate for each alternative should 
be reasonable. (Not Met)
    DHS's guidance requires that analysts measure and quantify the 
value of benefits in their cost-benefit analyses. The guidance suggests 
that all benefits can be quantified and urges analysts to monetize 
benefits to the greatest extent possible. DNDO's analysis did not 
produce reasonable estimates of benefits because the only benefits it 
describes are those associated with speeding up the flow of commerce 
out of seaports by reducing the number of false alarms and secondary 
inspections. The primary reason for installing radiation portal 
monitors is to prevent the smuggling of radiological or nuclear 
materials. DNDO never considers this in its benefit analysis. Instead, 
DNDO relies on a reduction of the time CBP takes to complete a 
secondary inspection as the sole benefit of ASPs.

Criterion 6: The analysis should apply a proper discount rate to the 
costs and benefits and compare and evaluate alternatives on the basis 
of their net present value. (Not Met)
    DHS's guidance requires that the Department's cost-benefit analyses 
apply a discount rate that would convert future costs and benefits into 
present-day dollars. OMB Circular A-94, the general guidance for 
conducting cost-benefit analyses of federal government programs, also 
requires that analyses apply discount rates to all future costs and 
benefits.\1\ DHS' guidance further requires that an analysis' discount 
rates should be in real terms (i.e., reflecting inflation, which 
reduces the value of the dollar over time), and applied over the same 
number of years for the current situation and each alternative. DHS's 
guidance also requires that benefits should be stated in terms of net 
present value, which attempts to adjust future costs and benefits in 
terms of the value of today's dollar.
---------------------------------------------------------------------------
    \1\ Appendix C of OMB Circular A-94 provides specific guidance on 
the discount rates to be used. Circular A-94 can be found at 
www.whitehouse.gov/omb/circulars/a094/a094.html.
---------------------------------------------------------------------------
    DNDO did not apply a discount rate to any of the costs or benefits 
in its analysis. Given that DNDO will accrue costs today for 
development and installation of ASPs, while the benefits for the ASPs 
remain uncertain and in the future, the application of a discount rate 
could significantly affect the results of DNDO's analysis, especially 
if it included the option of maintaining the status quo. The 
development costs and installation costs of PVTs, because they 
represent a relatively mature technology, are relatively small compared 
to those of ASPs. Similarly, DNDO never calculated its benefits in 
terms of net present value. This could be a critical omission if the 
benefits of ASPs are delayed because they do not perform immediately as 
expected. Benefits accrued today would have a higher value than 
benefits accrued in the future.

Criterion 7: The analysis should include an assessment of the 
uncertainty of each alternative's costs and benefits. (Partially Met)
    Cost-benefit analyses inherently have a degree of uncertainty 
because they use data and measurements that may be imprecise and apply 
assumptions about the future that may not come to fruition. DHS' 
guidance requires that a cost-benefit analysis acknowledge and account 
for these uncertainties and discuss how the uncertainties affect the 
relative value of each alternative. An uncertainty analysis should 
include an assessment of how much particular assumptions must change in 
order for the net benefits of the second best alternative to match the 
net benefits of the preferred alternative. In particular, DHS suggests 
that a cost-benefit analysis include ``sensitivity analyses'' that 
change a single assumption or factor in the analysis in order to assess 
how it changes the final outcome of the analysis. For example, a 
sensitivity analysis could calculate whether the purchase of ASPs would 
still produce a net benefit if their purchase price proved to be twice 
what DNDO assumes. A sensitivity analysis provides the reader with an 
idea of how precise and how stable the final outcome of the analysis 
may be.
    DNDO did not include an assessment of the overall uncertainty of 
the estimates contained within its analysis. It did, however, include a 
sensitivity analysis of how changes in a few factors would affect 
DNDO's overall analysis. For instance, DNDO changed its assumptions 
about the ASP's maintenance costs, raising it from 10 percent to 25 
percent of the purchase price, and showing that this change did not 
affect DNDO?s choice of a preferred alternative.
    Nonetheless, DNDO's sensitivity analysis did not go far enough. If, 
for example, maintenance for an ASP costs 55 percent of its purchase 
price--an assumption we believe is plausible depending on the 
environmental conditions in which an ASP is installed--DNDO's proposed 
alternative no longer has the largest net benefits. Similarly, if DNDO 
included all the costs associated with ASPs that we believe it omitted 
from its analysis, such as costs of purchasing heating and cooling 
units and their associated electricity costs, DNDO's proposed 
alternative may not return the largest net benefits.

Criterion 8: The analysis should be compared with similar analyses and 
any differences should be discussed and explained. (Not Met)
    DHS' guidance states that cost-benefit analyses, to the extent 
possible, should cross-reference similar analyses on the issue or 
analyses using similar methodologies. In this case, DNDO should have 
examined other cost estimates of ASPs and PVTs or the methodology of 
other studies examining the costs and benefits of technologies that 
have yet to be fully developed.
    However, DNDO did not mention in its cost-benefit analysis whether 
it consulted other estimates of the costs of ASPs and PVTs or the 
methodologies of other studies. Neither did DNDO state that it 
conferred with other federal entities that use radiation detection 
equipment, such as the Department of Defense or the Department of 
Energy, on the reasonability of its cost estimates or the assumptions 
in its analysis. DOE's experience developing and using portal monitors 
as it screens cargo in selected foreign ports before it embarks for the 
United States (the Megaports program) should have been assessed. 
Finally, CBP's experience with its installation of PVTs also could have 
been helpful in this regard. In short, DNDO did not conduct a ``reality 
check'' with other entities that have experience with the procurement, 
installation, and operation of radiation detection equipment.

                                 <all>

</pre></body></html>
